<html>
<title> - THE ENVIRONMENTAL ASPECTS OF MODERN OIL AND GAS DEVELOPMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
      THE ENVIRONMENTAL ASPECTS OF MODERN OIL AND GAS DEVELOPMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                     Wednesday, September 17, 2003

                               __________

                           Serial No. 108-56

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-399              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                    BARBARA CUBIN, Wyoming, Chairman
              RON KIND, Wisconsin, Ranking Democrat Member

W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Chris Cannon, Utah                       Samoa
Jim Gibbons, Nevada                  Solomon P. Ortiz, Texas
Mark E. Souder, Indiana              Grace F. Napolitano, California
Dennis R. Rehberg, Montana           Tom Udall, New Mexico
Tom Cole, Oklahoma                   Brad Carson, Oklahoma
Stevan Pearce, New Mexico            Edward J. Markey, Massachusetts
Rob Bishop, Utah                     VACANCY
Devin Nunes, California              VACANCY
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 17, 2003....................     1

Statement of Members:
    Kind, Hon. Ron, a Representative in Congress from the State 
      of Wisconsin...............................................     3
        Prepared statement of....................................     5
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     6
    Tauzin, W.J. ``Billy,'' a Representative in Congress from the 
      State of Louisiana.........................................     1
    Vitter, Hon. David, a Representative in Congress from the 
      State of Louisiana.........................................     7
        Prepared statement of....................................    10

Statement of Witnesses:
    Amos, John F., President, SkyTruth...........................    57
        Prepared statement of....................................    59
    Kolian, Steve, Louisiana Department of Environmental Quality.    16
        Prepared statement of....................................    18
    Kulesza, Hank, Chief Operating Officer, K&M Technology Group.    44
        Prepared statement of....................................    47
    Love, Dr. Milton, Marine Science Institute, University of 
      California, Santa Barbara..................................    50
        Prepared statement of....................................    51
    Sammarco, Dr. Paul W., Louisiana Universities Marine 
      Consortium.................................................    20
        Prepared statement of....................................    22
        Statement submitted for the record.......................    24
    Speer, Lisa, Senior Policy Analyst, Natural Resources Defense 
      Council....................................................    27
        Prepared statement of....................................    30
    Walker, Allen, Gulf Productions..............................    25
        Prepared statement of....................................    26

Additional materials supplied:
    Dokken, Dr. Quenton R., Associate Director, Center for 
      Coastal Studies, Texas A&M University-Corpus Christi, and 
      Executive Director, Gulf of Mexico Foundation, Statement 
      submitted for the record...................................    70


  OVERSIGHT HEARING ON ``ENVIRONMENTAL ASPECTS OF MODERN OIL AND GAS 
                             DEVELOPMENT''

                              ----------                              


                     Wednesday, September 17, 2003

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 1324, Longworth House Office Building, Hon. Billy Tauzin 
presiding.
    Members Present: Representatives Tauzin, Gibbons, Rehberg, 
Pearce, Pombo (ex officio), Kind, and Udall of New Mexico.
    Mr. Tauzin. The Committee will please come to order.
    Let me welcome all our witnesses and thank our colleague 
from Louisiana, Mr. Vitter, who will lead off the testimony 
today on this hearing on the environmental impacts of modern 
oil and gas development. The Chair will recognize himself 
briefly for an opening statement and will then yield to my 
friend, Mr. Kind, who will have an opening statement under the 
rules. Other members who have opening statements we will place 
them in the record, is my understanding.
    The Chair recognizes himself for an opening statement.

STATEMNT OF THE HON. W.J. ``BILLY'' TAUZIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Tauzin. Let me first thank all the witnesses for 
coming. As even our most recent former president Bill Clinton 
recognized, modern technology in the production of oil and gas 
in America has made rapid and dramatic improvements over the 
time that I have been here in the Congress over the last 23 
years. In fact, President Clinton and Vice President Gore 
presided over a 1998 national oceans conference in Monterey, 
and the report from that conference which was requested by 
President Clinton from his cabinet on a coordinated disciplined 
long-term ocean policy contains the following statement: 
Advances in technology have made offshore oil and gas 
production cleaner and safer than ever.
    Since 1980, 6.9 billion barrels of outer continental shelf 
oil has been produced, with a spillage rate of less than point 
001 percent. And despite these advances, however, environmental 
concerns have led to congressional and executive moratorium 
since 1981, and many of our coastal areas are closed to new 
leasing through the year 2012. In effect, the report was 
indicating that the policy is woefully lagging behind the 
advances in technology and has failed to recognize the fact 
that ocean production of oil and gas and other minerals can now 
be conducted in ways that have very insignificant impacts upon 
the environment. We will learn more about that proposition and 
more about the energy environmental aspects current 
technologies on production as we go forward.
    There are only nine States in America that now produce more 
energy than they consume. And if America is worried about a 60 
plus percent reliance on foreign oil, let me caution all our 
neighboring states who are not one of the nine States that 
produce more energy than they consume, that some of them have 
put themselves in extraordinarily vulnerable situations.
    California, for example, consumes now twice as much energy 
as it produces. No surprise that California had an energy 
crisis. Right here in Maryland, by the way, Maryland consumes 
10 times the energy that this State produces, right next to our 
Nation's capital. In Florida, the State that objects to any oil 
and gas production off its coast, yet it supports offshore 
pipeline projects from Alabama and Louisiana, et cetera, it 
consumes 23 times as much energy as it produces as a State. 
Imagine America being 23 times dependent on foreign sources for 
our energy. That is where Florida is.
    And finally, my dear friend, Mr. Markey, who is not here 
yet, but Mr. Markey and I serve on the Energy and Commerce 
Committee together, as you know. Mr. Markey's State of 
Massachusetts uses 61 times the energy it produces. Only 9 
States, my own State of Louisiana being one of them, produce 
more energy than they consume. In fact, Louisiana produces 
twice as much energy as it consumes, and yet Louisiana is one 
of the highest per capita energy consumers in America because 
of the petrochemical industry and other merchant energy plants 
that exist in our State.
    About half of America's homes are heated by natural gas, 
and 90 percent of the new power facilities that are being 
brought on-line in the next 10 years will require natural gas. 
Mr. Greenspan has been here 5 times on the Hill to warn us of 
an impending crisis in natural gas, and yet we still lock up 
over 40 percent of the natural gas that could be produced in 
our country. The Department of Energy recently predicted that 
the gap between supply and demand will increase by another 50 
percent in the next 20 years. And while we are at it, we ought 
to recognize that oil and gas production on the Federal lands 
and waters is providing about $130 billion to our National 
Treasury, much of that money needed for the programs that so 
many of our friends who oppose development are very willing and 
anxious to spend on behalf of programs that they are very 
interested in funding with the very money that they objected to 
being raised in oil and gas development.
    Well, I want to go back quickly, and then I will yield to 
my friend, to the late 1980s when Senator Pete Domenici and I 
started something called the Keystone Energy Board Project. It 
is a project to bring environmentalists, public policymakers, 
and legislators from State and Federal sources together in a 
single board to talk about not the fight between environment 
and energy production but the cooperative efforts and the way 
one could enhance the other and how one might, in fact, 
accommodate the other in ways that we can have the two of them 
and in a compatible system. That Keystone Energy Board did some 
remarkable work in building bridges between the developmental 
needs of our country and the environmental concerns of our 
country.
    This hearing is designed to update us on the technology, on 
the condition, on the relationship between the environment and 
the new technology of energy production, and we certainly want 
to welcome that testimony. We believe, Chairman Pombo, that 
this is going to aid immeasurably to this Committee's knowledge 
and understanding of this issue as we move forward.
    I thank the Committee, and I now am pleased to yield to the 
Ranking Democrat of the Subcommittee, Mr. Kind, for an opening 
statement.

 STATEMENT OF THE HON. RON KIND, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Kind. Thank you, Mr. Chairman. And I, too, want to 
thank our colleague, Mr. Vitter, for his presence and testimony 
here today as well as the two panels that will be testifying. 
We look forward to hearing your testimony. This is an important 
hearing, and it is always good to get some updates on the 
progress being made with oil and gas development in this 
Nation. And I agree with you, Mr. Chairman, we need to be 
diligent in regards to exploring our energy resources as a 
Nation. But I would also hope that we can take a balanced 
approach, recognizing the other values that our society holds 
dear rather than just further exploration and development, but 
the protection of our vital natural resources and the 
conservation and the beautiful lands throughout the United 
States. I think that too is very important to keep in mind.
    Today's hearing addresses environmental aspects of modern 
oil and gas development. Certainly, the oil and gas industry 
has worked diligently to improve its environmental track record 
during recent years and we will hear about some of these 
accomplishments from today's panelists. We will hear about oil 
rigs that are decommissioned and transformed into artificial 
reefs; we will hear about directional drilling and the ability 
to access more resource through fewer wills. We will hear about 
the footprint reduction in onshore development. All these 
examples are trends that should continue as new technology 
becomes available, and all constitute a step in the right 
direction.
    However, there are some negative impacts related to 
resource development, and I understand that it is the desire 
from the Chairman and the Committee to try to focus a lot of 
today's discussion on the Gulf of Mexico, but there are also 
some challenges arising in other parts of the Nation too that 
deserve attention. News reports on the coalbed methane boom 
occurring in the Powder River Basin and other areas of the 
Rocky Mountain Region are published nearly every day. Just 
recently, administrative backlogs in the coalbed methane 
permitting process have begun to loosen, and thousands of new 
projects will soon break ground. In fact, up to 66,000 new 
coalbed methane and 3,000 oil and gas wells are expected to be 
drilled in Wyoming over the next 10 years. Yet, industry has 
not addressed many of the negative impacts associated with this 
type of development.
    Many western landowners do not own their land's subsurface 
mineral rights and therefore cannot prevent oil and gas 
developers from acquiring the right to drill on their property. 
The split-estate nature of western lands allows oil and gas 
companies to lease the subsurface mineral rights of lands that 
have been used by ranches for many generations. Thus, everyday 
ranchers are waking to the sound of industry on their lands and 
have virtually no say in the operations that follow. Toxic 
holding ponds, tainted groundwater, dry wells and roughshod 
roads, the inevitable impacts of the industrial gas production 
leave ranchers with dead livestock, ailing crops, and toxic 
water supplies. If we are to truly benefit from the production 
of coalbed methane, we must ensure that it is produced 
responsibly, both for the sake of our ranchers and for the 
environment.
    One of the most serious energy issues in recent years is 
the shortage of natural gas, as the Chairman just cited. During 
our June 19th hearing in this Subcommittee, representatives of 
the oil and gas industry claimed the only solution to the gas 
shortage was increased domestic development. Five days later in 
another oversight hearing on domestic natural gas resources, 
the industry claimed that a large portion of western natural 
gas resources are restricted from development through a 
patchwork of wildlife protections and environmental safeguards. 
Now, make no mistake, part of the solution will come from 
increased domestic production. I think everyone recognizes 
that, and we have been holding countless hearings to that 
point. However, we shouldn't sacrifice years of work aimed to 
protect wildlife and the environment for the sake of resource 
development and oil and gas industry giveaways in this Nation. 
Wildlife enthusiasts including hunters and fishermen and other 
sportsmen are becoming increasingly concerned about the rapid 
pace of oil and gas development occurring in the Rocky Mountain 
region. They have testified that though designed specifically 
to protect wildlife, stipulations for seasonal restrictions are 
frequently waived at industry's request in order to accommodate 
drilling or other developmental activities.
    At this time, I would like to submit for the record a list 
of all wildlife stipulation waiver requests submitted to the 
Pinedale, Wyoming Bureau of Land Management field office for 
last winter. It is evidence from first glance of this list that 
nearly all the waiver requests were granted. It is also 
relevant to note that the Jonah natural gas field, one of the 
largest gas discoveries in North America, is under the 
jurisdiction of the Pinedale field office. On the other hand, 
offshore development has enjoyed an impressive environmental 
track record for a number of years, with the advents of 
directional drilling, advanced platform design and dynamic 
positioning systems, offshore drilling has become a relatively 
clean production practice.
    As we will hear from our colleague, Mr. Vitter, platforms 
are no longer removed from the environment; rather, they are 
transformed into artificial reefs and scientific research 
stations. These are good things and very beneficial.
    Despite these advancements, there is one major issue facing 
the Gulf that continues to endanger the environment and even 
the residents of the Gulf Coast region. Mr. Ben Raines, a 
reporter for the Mobile Register, recently won the John Oakes 
Award for Environmental Journalism for a series of articles 
uncovering the serious problem of mercury contamination in the 
Gulf of Mexico sea life. Mr. Raines discovered that, largely 
due to federally licensed dumping of drilling muds from 
offshore rigs and platforms, marine worms, the primary 
feedstock of bottom-feeding gulf fish, have become highly 
poisoned with mercury. In fact, mercury concentrations in sand 
around some rigs are as high as levels found at some Federal 
Superfund sites now closed to fishing as a result of severe 
contamination by the toxic metal. Therefore, without objection, 
Mr. Chairman, I would submit Mr. Raines' articles on mercury 
contamination for the record at this time.
    Mr. Tauzin. Without objection, it will be ordered.
    [NOTE: The articles have been retained in the Committee's 
official files.]
    Mr. Kind. While we celebrate the accomplishments of modern 
oil and gas development here today, we must recognize and 
remember the environmental issues that continue to plague the 
industry. By cultivating a greater symbiosis between the 
development and the surrounding natural environment, we can 
fulfill our duty as stewards of this great land and continue to 
preserve its beauty and spirit. And, again, I thank our 
witnesses' testimony here today. We look forward to it. Thank 
you, Mr. Chairman.
    Mr. Tauzin. I thank the gentleman for his opening 
statement.
    [The prepared statement of Mr. Kind follows:]

        Statement of The Honorable Ron Kind, Ranking Democrat, 
              Subcommittee on Energy and Mineral Resources

    Today's hearing addresses environmental aspects of modern oil and 
gas development. Certainly, the oil and gas industry has worked 
diligently to improve its environmental track record over the years, 
and we will hear about some of these accomplishments from today's 
panelists.
    We will hear about oil rigs that are decommissioned and transformed 
into artificial reefs.
    We will hear about directional drilling and the ability to access 
more resource through fewer wells.
    We will hear about footprint reduction in onshore development. All 
of these examples are trends that should continue as new technology 
becomes available, and all constitute a step in the right direction.
    However, many negative impacts related to resource development 
persist. News reports on the coalbed methane boom occurring in the 
Powder River Basin and other areas in the Rocky Mountain region are 
published nearly every day.
    Just recently, administrative backlogs in the coalbed methane 
permitting process have begun to loosen, and thousands of new projects 
will soon break ground. In fact, up to 66,000 new coalbed methane, and 
3,000 oil and gas, wells are expected to be drilled in Wyoming over the 
next ten years, yet, industry has not addressed the many negative 
impacts associated with this type of development.
    Many Western landowners do not own their land's subsurface mineral 
rights, and therefore cannot prevent oil and gas developers from 
acquiring the right to drill on their property. The ``split-estate'' 
nature of western lands allows oil and gas companies to lease the 
subsurface mineral rights of lands that have been used by ranchers for 
generations.
    Thus, everyday, ranchers are waking to the sound of industry on 
their lands, and have no say in the operations that follow. Toxic 
holding ponds, tainted groundwater, dry wells, and roughshod roads, the 
inevitable impacts of industrial gas production, leave ranchers with 
dead livestock, ailing crops, and toxic water supplies. If we are to 
truly benefit from the production of coal bed methane, we must ensure 
that it is produced responsibly, both for the sake of our ranchers and 
our environment.
    One of the most serious energy issues in recent years is the 
shortage of natural gas in the United States. During our June 19th 
hearing, representatives of the oil and gas industry claimed the only 
solution to the gas shortage was increased domestic development. Five 
days later, in another oversight hearing on domestic natural gas 
resources, the industry claimed that a large portion of Western natural 
gas resources are restricted from development through a patchwork of 
wildlife protections and environmental safeguards.
    Make no mistake, part of the solution will come from increased 
domestic production; however, we should not sacrifice years of work 
aimed to protect wildlife and the environment for the sake of resource 
development and oil and gas industry give-away's. Wildlife enthusiasts, 
including hunters, fishermen and other sportsmen, are becoming 
increasingly concerned about the rapid pace of oil and gas development 
occurring in the Rocky Mountain Region. They have testified that though 
designed specifically to protect wildlife, stipulations or seasonal 
restrictions are frequently waived at industry's request in order to 
accommodate drilling or other development activities.
    At this time, I would like to submit for the record a list of all 
wildlife stipulation waiver requests submitted to the Pinedale, Wyoming 
BLM Field Office for last winter. It is evident from first glance that 
nearly all requests were granted. It is also relevant to note that the 
Jonah natural gas field, one of the largest gas discoveries in North 
America, is under the jurisdiction of the Pinedale Field Office.
    On the other hand, offshore development has enjoyed an impressive 
environmental track record for a number of years. With the advents of 
directional drilling, advanced platform design, and dynamic positioning 
systems, offshore drilling has become a relatively clean production 
practice. As we will hear from our colleague, Mr. Vitter of Louisiana, 
platforms are no longer removed from the environment, rather, they are 
transformed into artificial reefs and scientific research stations.
    Despite these advancements, there is one major issue facing the 
Gulf that continues to endanger the environment and even the residents 
of the Gulf coast region. Ben Raines, a reporter for the Mobile 
Register, recently won the John B. Oakes award for environmental 
journalism for his series of articles uncovering the serious problem of 
mercury contamination in Gulf of Mexico sea life. Mr. Raines discovered 
that, largely due to the federally-licensed dumping of drilling muds 
from offshore rigs and platforms, marine worms, the primary feedstock 
of bottom-feeding Gulf fish, have become highly poisoned with mercury. 
In fact, mercury concentrations in sand around some rigs are as high as 
levels found at some federal superfund sites now closed to fishing as a 
result of severe contamination by the toxic metal.
    Therefore, without objection, I submit Mr. Raines' articles on 
mercury contamination for the record.
    While we celebrate the accomplishments of modern oil and gas 
development here today, we must recognize and remember the 
environmental issues that continue to plague the industry. By 
cultivating a greater symbiosis between development and the surrounding 
natural environment, we can fulfill our duty as stewards of this great 
land and continue preserve its beauty and spirit.
                                 ______
                                 
    Mr. Tauzin. And without objection, other Members' opening 
statements will be made a part of the record.
    We are now pleased to welcome my colleague and our 
colleague from Louisiana--Mr. Pombo, did you wish to make an 
opening statement? I believe you have the right as Chairman of 
the Committee. So, Mr. Pombo is recognized. Pardon my abuse of 
your rank, Mr. Pombo. I have been in that Commerce Committee so 
long, I forget sometimes.

  STATEMNT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF CALIFORNIA, AND CHAIRMAN, COMMITTEE 
                          ON RESOURCES

    Mr. Pombo. Well, just very briefly. I want to express my 
appreciation to you and the rest of the Committee for holding 
this hearing this morning. I do believe this is extremely 
important.
    A lot of what the Ranking Member said this morning, I agree 
with. I do think that it is a matter of achieving a balance in 
terms of producing new energy and protecting our environment. I 
think many times what we have seen in recent years is a false 
choice that has been put in front of us, that either you 
protect the environment, or you produce energy. And being 
responsible legislators, I don't think we can stand for that 
false choice. We have to look at how do we use technology, 
modern technology and what we have learned over the many years 
that we have been producing energy in this country so that we 
don't make some of the mistakes of the past, so that we can 
look at how do we bring new areas on line and maintain the 
environment.
    I would also just say that any time we do anything as human 
beings, we have an impact on the environment, whether it is 
recreating in our public lands, whether it is resource 
extraction from our public lands. Anything, any time that human 
beings have any kind of activity, there is an impact on the 
environment. Our goal is to mitigate that impact and to have it 
be as light as we possibly can.
    I do believe that it is possible to have energy 
development, resource development in this country without 
having the devastating impact on our environment, and I believe 
it is our responsibility as Federal legislators to make that 
happen. And I thank the Chairman, and I yield back.
    Mr. Tauzin. The Chair thanks the Chairman of the full 
Committee. And, again, other Members' statements will be made a 
part of the record without objection.
    And now the Chair is pleased to recognize the distinguished 
gentleman from Louisiana, the Honorable David Vitter who 
represents the first district of Louisiana and who has 
developed a very deep and abiding interest in this subject 
matter and has introduced H.R. 2654, the Rigs to Reef Act, 
which I believe he will discuss with us among other issues 
today.
    Welcome, Mr. Vitter. We are honored to have you.

    STATEMENT OF THE HON. DAVID VITTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Vitter. Thank you very much, Mr. Chairman, and members 
of the Subcommittee. And thank you for calling this hearing on 
what is a very important environmental and economic issue.
    You know, members, I am sure there have been literally 
hundreds of hearings on the environmental impacts on oil and 
gas development in the history of the Congress, and I am 
equally sure that the vast majority of those hearings have 
focused purely on environmental problems and hazards. Now, 
those are real and those are important, and there is no 
disputing that. But there is the rest of the story, as Paul 
Harvey would put it, which is equally real and important. It is 
a story of thriving ecosystems that actually build and develop 
around, and solely because of, offshore platforms. And I 
applaud you for focusing on that story today.
    Offshore oil and gas platforms are home to some of the most 
prolific ecosystems on our planet. These structures attract new 
coral populations and attach quickly after the platform is 
placed, and then continue to flourish for the entire life of 
the platform. And with the corals come fish species, many of 
which are protected or endangered.
    The scientist and experts we will hear from later can 
better explain how this happens, but what I know is what 
everyone who fishes Louisiana knows: The best fishing is under 
oil and gas platforms and around artificial reef sites. The 
coral that develops on the structures lays the foundation for 
thousands of fish and other species which helps create these 
thriving ecosystems. However, when platforms go out of 
production, current Federal regulations require that they be 
removed from the water and literally ripped out within a year. 
And what does that mean? It means that these thriving 
ecosystems are literally ripped from the water, fish habitats 
are completely disrupted and destroyed, and often many species 
including rare species of sea life are destroyed.
    Now, there are roughly 4,000 platforms in the Gulf of 
Mexico, and about 120 to 200 are due to be removed each year 
for many years to come. With so many platforms being removed, I 
hope more options can be found for these useful structures. 
Alternative uses means continued benefits for the environment 
and opportunities for new jobs to replace those lost by the 
growing number of decommissioned platforms.
    I am going to talk about three possible uses for these 
decommissioned platforms, and that is what my bill focuses on. 
And I will get to the details of the bill in a minute. One very 
real and possible use for these platforms is scientific 
research. With the thriving ecosystems underneath a platform, 
there is potential for research to do all sorts of things, find 
medical uses of the sponges that grow around some platforms, or 
promote studies involving rare aquatic species, or work on fish 
behaviors and much more. Second, these platforms could be used 
for fish farming and other mariculture uses. Mariculture could 
increase fish populations and thereby reduce our dependence or 
foreign seafood imports, and mariculture could prove useful in 
providing more protein rich food that is readily available and 
quickly produced to actually feed the world's hungry.
    Japan, for example, is spending billions of dollars to 
create offshore structures specifically for mariculture. 
Meanwhile, our waters already have these structures which are 
better in many, many ways for these purposes. Those structures 
are in place, but our policy again is to remove and rip them 
out of the ocean, destroying thriving marine environments and 
really destroying that vast environmental and economic 
potential.
    The third option for these decommissioned platforms is for 
them to become part of artificial reefs. This option leaves the 
ecological benefits of having the structure in the water, and 
would benefit the commercial and recreational fishing 
industries as well.
    Now, recognizing the ecological benefit of these 
structures, my own State of Louisiana began a rigs-to-reefs 
program in 1986. It is State-based, but it is under some 
Federal guidance. This allows decommissioned platforms to 
become part of a reef site after they have ceased operating. 
Other states have similar programs. But all of these programs, 
quite frankly, while very beneficial, very productive, very 
well designed are limited in scope mainly because significant 
hindrances to this sort of work remains, including at the 
Federal level. Only about 8 percent of decommissioned platforms 
have been placed in reef sites since the beginning of these 
State-based programs. And with hundreds more due to be removed 
each year, there is potential for increasing the number of 
artificial reefs or other uses of decommissioned platforms and 
providing more homes for coral fish and other aquatic species 
that live around these structures.
    Because I believe strongly in the usefulness of these 
decommissioned platforms, particularly in the three important 
categories I mentioned, I have introduced a bill here at the 
Federal level to remove some of the still existing hindrances 
that prevent greater alternative uses of decommissioned 
platforms. I believe we can safely leave these structures in 
the water in many cases for the uses I have discussed. These 
structures should not be removed from the water without at 
least examining in a very serious way their alternative uses 
without trying to minimize the environmental loss, the actual 
environmental disruption and loss that occurs when platforms 
are ripped out and removed.
    H.R. 2654 is my Rigs to Reefs Act, and it would give the 
Secretary of the Interior authority to create a program to 
allow using decommissioned platforms for culturing marine 
organisms as an artificial reef or for scientific research. 
This would mean that the requirement for 1-year removal could 
be suspended under this program if platforms were carefully and 
properly decommissioned, cleaned up, and transferred to these 
other purposes.
    The bill addresses liability issues, which is perhaps the 
key hindrance to alternative uses and artificial reefs, and a 
top reason these platforms are removed 92 percent of the time 
and only used as reefs or other things 8 percent of the time. 
Under my bill, liability claims involving oil and gas 
production stay with oil and gas company. But for actions 
following transfer and for activities completely unrelated to 
oil and gas production, the liability would follow the 
ownership of the platform. Without the hindrance of continued 
liability, platform owners would be far more likely to 
negotiate for alternative uses or transfer their platforms to 
artificial reef sites.
    In addition, the bill directs the Secretary of the Interior 
to study and report back within a year how further removal of 
platforms will affect existing fish stocks and coral 
populations. This study would quantify the extent to which 
platforms are beneficial to the offshore underwater environment 
and the extent to which more platform removals would be 
actually harmful to fish stocks and coral. I am very confident 
that this study would complement other existing research and 
give us real science, real data and numbers to provide evidence 
about how these platforms and to what extent they are 
beneficial to the marine environment.
    These alternative uses I have talked about, specifically 
three, mariculture uses, scientific research, artificial reefs, 
can all be implemented in a clean, safe way. Any alternative 
use under my bill as well as under existing State programs 
would only be allowed after the full and careful 
decommissioning of the platform, including the removal of heavy 
equipment, heavy machinery, industrial liquids, the cleaning of 
the platform, et cetera.
    I also want to emphasize that my bill and this course of 
action would not mandate any course of action for a particular 
platform; it would simply create more options. And it 
specifically states that it does not supersede any existing 
lease authority the Secretary of the Interior already has, 
instead only adding new opportunities.
    Right now, platform removal is almost the only option, with 
limited exceptions. And yet there lies great benefit for the 
marine environment if more potential uses can be explored in a 
practical way.
    Mr. Chairman, thank you again for having this hearing. This 
is the first step in raising awareness of the ecological 
benefits of offshore oil and gas platforms. And I really do 
appreciate the effort of you and the rest of the Subcommittee 
in this regard. Thank you. I would be happy to answer any 
questions if any of the members of the Subcommittee would have 
any.
    Mr. Tauzin. Thank you very much, Mr. Vitter.
    [The prepared statement of Mr. Vitter follows:]

 Statement of The Honorable David Vitter, a Representative in Congress 
                      from the State of Louisiana

    Madam Chairman and Members of the Subcommittee:
    Thank you for calling this hearing on this important environmental 
and economic issue.
    You know, members, I'm sure there have been literally hundreds of 
hearings on the environmental impacts of oil and gas development in the 
history of the Congress. And I'm equally sure that virtually every one 
of those hearings has focused purely on environmental problems and 
hazards.
    Now those are real and important. But there's the rest of the 
story, as Paul Harvey would put it, that's equally real and important. 
It's the story of thriving ecosystems that actually build and develop 
around--and solely because of--offshore platforms. And I applaud you 
for focusing on that part of the story today.
    Offshore oil and gas platforms are home to some of the most 
prolific ecosystems on our planet. These structures attract new coral 
populations that attach quickly after the platform is placed and then 
continue to flourish for the entire life of the platform. With the 
corals come fish species, many of which are protected or endangered.
    The scientists and experts we will hear from later can better 
explain how this happens. But what I know is what everyone who fishes 
Louisiana knows: the best fishing is under oil and gas platforms and 
around the artificial reef sites. The coral that develops on the 
structures lays the foundation for thousands of fish and other species, 
which helps create these thriving ecosystems.
    However, when platforms go out of production, current federal 
regulations require that they removed from the water and ripped out--
within a year. What does that mean? Thriving ecosystems are ripped from 
the water, fish habitats are disrupted, and many rare species of sea 
life are even destroyed.
    There are roughly 4,000 platforms in the Gulf of Mexico, and about 
120-200 are due to be removed each year for years to come. With so many 
platforms being removed, I hope more options can be found for these 
useful structures. Alternative uses means continued benefits for the 
environment and opportunities for new jobs to replace those lost by the 
growing number of decommissioned platforms.
    One possible use for these platforms is scientific research. With 
the vast ecosystems underneath a platform, there is potential for 
research to find medical uses of the sponges that grow around some 
platforms, studies involving rare aquatic species, work on fish 
behaviors, and much more.
    Also, these platforms could be used for fish-farming and other 
mariculture uses. Mariculture could increase fish populations and 
thereby reduce our dependence on foreign seafood imports. And 
mariculture could prove useful in providing more protein-rich food that 
is readily available and quickly produced to help feed the world's 
hungry. Japan, for example, is spending billions of dollars to create 
offshore structures for mariculture. Our waters already have these 
structures in place, but our policy is to remove them, destroying 
thriving marine environments and removing vast potential.
    A third option for decommissioned platforms is for them to become 
part of artificial reefs. This option leaves the ecological benefits of 
having the structure in the water and would benefit the commercial and 
recreational fishing industries.
    Recognizing the ecological benefit of these structures, my home 
state, Louisiana, began a rigs-to-reefs program in 1986 under federal 
guidance. This allows decommissioned platforms to become part of a reef 
site after they have ceased operating. Other states have similar 
programs, but these programs are limited in scope because of many 
hindrances at the federal level. Only 8 percent of decommissioned 
platforms have been placed in reef sites. With hundreds more due to be 
removed each year, there is potential for increasing the number of 
artificial reefs and providing more homes for coral, fish, and the 
other aquatic species that live around these structures.
    Because I believe strongly in the usefulness of these platforms and 
their ecological benefits, I have introduced a bill to remove some of 
the hindrances that prevent greater alternative use of decommissioned 
platforms. I believe we can safely leave these structures in the water 
for the uses I've discussed. These structures should not be removed 
from the water without at least examining their many alternative uses, 
or without trying to minimize the environmental loss that occurs when 
platforms are removed.
    H.R. 2654, the Rigs to Reefs Act, will give the Secretary of 
Interior authority to create a program to allow using decommissioned 
platforms for culturing marine organisms, as an artificial reef, or for 
scientific research. This would mean that the requirement for one-year 
removal could be suspended if platforms were carefully and properly 
decommissioned and used for these other purposes.
    The bill addresses liability issues, a key hindrance to alternative 
uses and artificial reefs and a top reason these retired platforms are 
removed. Under my bill, liability claims involving oil and gas 
production stay with the oil and gas company. But for actions following 
transfer for activities not related to oil and gas production, the 
liability will follow the ownership of the platform. Without the 
hindrance of continued liability, platform owners would be more likely 
to negotiate for alternative uses or transfer their platforms to 
artificial reef sites.
    Additionally, the bill directs the Secretary of Interior to study 
and report back within a year how further removal of platforms will 
affect existing fish stocks and coral populations. This study will 
quantify the extent to which platforms are beneficial to the offshore 
underwater environment and the extent to which more platform removals 
would be harmful to fish stocks and coral. I am confident this study 
would complement other existing research and provide more evidence that 
these platforms are beneficial to the marine environment.
    These alternative uses can be implemented in a clean, safe way. Any 
alternative use would only be allowed after the full and careful 
decommissioning of the platform, including the removal of engines, 
other heavy machinery, and any industrial liquids.
    My bill would not mandate any course, only create more options. And 
it specifically states that it does not supercede any existing lease 
authority the Secretary of Interior already has, instead only adding 
new opportunities. Right now, platform removal is the only option, yet 
there lies great benefit for the marine environment in these structures 
and much potential for other uses.
    Madam Chairman, thank you again for having this hearing. This is 
the first step in raising awareness of the ecological benefits of 
offshore oil and gas platforms, and I appreciate the efforts of you and 
the rest of the Subcommittee.
                                 ______
                                 
    Mr. Tauzin. Let me begin with a few questions. You 
mentioned in your statement the 1986 program in Louisiana to 
create a rigs-to-reefs program. Is that program limited to 
State waters?
    Mr. Vitter. As far as I know, it is not limited to State 
waters. But it--well, actually, I have to check on that. I am 
not certain. But it is certainly limited in terms of how 
practically it is carried out because of the sort of 
hindrances, the biggest one being liability.
    Mr. Tauzin. I want to talk to you about liability. Even 
under the State's program right now, liability still follows 
the company; so that if the company turns a rig over for a 
rigs-to-reefs program, it is doing so at some risk. Is it not? 
If someone gets injured on that rig fishing or someone is doing 
experiments, or simply filming or doing a study, gets injured 
on the rig, some rigging on the rig catches them and there is a 
claim of negligence and not having cut that rigging or 
something away, the company is still remains liability, doesn't 
it?
    Mr. Vitter. Yes, that is true.
    Mr. Tauzin. Why would any company want to take that risk 
and leave a rig out there?
    Mr. Vitter. Well, that is a great question. And, quite 
frankly, I think that is the dominant reason we have this 
figure of 8 percent use of the program versus 92 percent 
ripping these platforms out at much greater cost clearly.
    Mr. Tauzin. That is the point. I mean, if a company knows 
it has got to spend a lot of money to rip it out, but the other 
side of that is if it doesn't spend that money to rip it out, 
if it accepts the role in the rigs-to-reefs program, it accepts 
some rather long-term unlimited liability. Does it not?
    Mr. Vitter. Correct.
    Mr. Tauzin. That is not a risk that stockholders would 
appreciate?
    Mr. Vitter. Right.
    Mr. Tauzin. And do you agree with me that it probably is 
the single most important reason why more rigs are not left in 
place to serve as, as you pointed out, ecological centers for 
mariculture development than any other reason that we have ever 
heard of?
    Mr. Vitter. Yes. I think it is the single biggest reason 
why, again, this figure is so low, 8 percent versus 92 percent 
ripping it out. Also, I think it is the reason that the State-
based programs are pure artificial reef programs.
    Mr. Tauzin. Explain that to us. What do you mean by that?
    Mr. Vitter. Well, I mean the only thing that happens with 
those 8 percent of rigs in the State-based programs is using 
the rigs as part of an artificial reef.
    Mr. Tauzin. In other words, all other potential uses are 
not even thought about because of the liability program?
    Mr. Vitter. Correct.
    Mr. Tauzin. You don't want to put people on that rig to do 
experiments or to do mariculture activities because that is 
just too much liability?
    Mr. Vitter. Right. That means you would have humans 
actively being on the platform. That is not even considered 
now. And although my bill is called informally rigs to reefs, 
it is actually broader than that because we specifically talk 
about three categories, not just artificial reefs but 
scientific research to mariculture.
    Mr. Tauzin. How would you handle that? Who would take over 
the liability for that reef under your bill and under your 
idea?
    Mr. Vitter. Well, again, under the bill, any liability, 
first of all, that goes back to activity when the platform was 
an active oil and gas production owned by the oil and gas 
company still goes to the oil and gas company.
    Mr. Tauzin. You wouldn't relieve them of any liability for 
the negligence during their operation of the rig?
    Mr. Vitter. No. Nor would we relieve them of any liability 
still associated, even after they sell the rig, with anything 
having to do with oil and gas production or activity.
    Mr. Tauzin. What does that mean?
    Mr. Vitter. Just, for instance, if the rig was improperly 
capped and you had some accident because of that improper 
capping. Now that, as a general matter, doesn't happen. But 
that would relate back to their activity, and they would still 
be on the hook even if it happened 5 years after ownership of 
the platform past. However, if the liability on the other hand 
is after their ownership is over and has nothing to do with oil 
and gas activity, if there is--it is a scientific research 
station and someone gets hurt because people are climbing on 
the platform in its new use as a scientific research station, 
then the oil and gas company would not be on the hook for that.
    Mr. Tauzin. Who is on the hook for it?
    Mr. Vitter. The new owner and operator of the platform, 
whoever that might be, would be on the hook for that. I mean, 
under normal court law.
    Mr. Tauzin. So if the State took this over as a platform 
for simply a rigs-to-reefs program, the State would then assume 
liability for any accidents or injuries occasioned by the 
negligence connected with the platform?
    Mr. Vitter. Correct. Or if another private entity.
    Mr. Tauzin. Or if a nonprofit entity undertook or a profit 
entity took it over for mariculture production.
    Mr. Vitter. Correct.
    Mr. Tauzin. It would assume liability for operations of 
that rig not associated with oil and gas development.
    Mr. Vitter. Correct.
    Mr. Tauzin. All right. I thank the gentleman. Let me go to 
Mr. Kind and then I will come back.
    Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman.
    Thank you, Mr. Vitter. I appreciate your testimony here 
today.
    Mr. Vitter, in my opening statement I made reference to a 
series of articles that Mr. Ben Raines of the Mobile Register 
had written in regards to the mercury contamination in the 
Gulf. Are you familiar with those articles?
    Mr. Vitter. No, I am not.
    Mr. Kind. Are you familiar with the studies that have been 
taking place with regards to mercury contamination?
    Mr. Vitter. I am familiar generally with the issue, but I 
certainly can't cite you the findings of the studies.
    Mr. Kind. I understand there are some additional studies 
out there, too, that perhaps Mr. Raines hasn't cited and that, 
but this does seem to be a growing concern especially with the 
fishermen in the area, the consumers consuming the fish taken 
from the Gulf. And I would certainly be interested in following 
up with you at some point to see what we might be able to do in 
the ways of dealing with it, trying to get the best science 
possible to determine what is occurring and what the causes of 
that and what steps we might be able to take in order to reduce 
the increase in mercury contamination in a very important 
region. So perhaps at some point we can have a conversation 
about that or perhaps jointly request a hearing on mercury 
contamination in the Gulf before this Subcommittee so we can 
start working on some possible solutions.
    Mr. Vitter. Sure. I would be happy to work with you on 
that. Just because of where I live in the world, I probably end 
up eating a whole lot more of that fish, as does my family, 
than virtually anyone in this room. So I have an abiding 
interest in that. And as I said at the beginning of my 
comments, those sort of issues having to do with possible 
negative impacts, environmental impacts of oil and gas 
development are very real, and I am not disputing that. But 
there is this other side of the equation, which is that there 
is certainly in this one area a very positive impact. Maybe not 
intended or certainly not the primary purpose of these oil and 
gas rigs, not why they were put there, but it is a positive 
impact. And yet we have this policy that basically destroys 
that positive impact and tilts the playing field away from 
trying to preserve as much of that positive impact as possible.
    Mr. Kind. Well, we appreciate your awareness about it. We 
are concerned about you, quite frankly, and what you are 
consuming down there. And if there are some practical steps we 
can take to make sure that my good friend here from Louisiana, 
too, stays healthy and happy, we should be looking into that.
    Mr. Tauzin. Would the gentleman yield for a second?
    Mr. Kind. I would be happy to yield.
    Mr. Tauzin. The Tabasco we put on that stuff, it kills all 
that other stuff. No problem.
    Mr. Kind. Good luck. Thank you, Mr. Chairman. Thank you, 
Mr. Vitter.
    Mr. Tauzin. Thank you. Mr. Pearce has some questions.
    Mr. Pearce. Thank you, Mr. Chairman. Just going back to 
your question and who would be on the hook. And I appreciate 
the gentleman's efforts to bring the bill forward. I think my 
only point is as a clarification that no one is ever off the 
hook. And that is the honest truth. We might want these to 
continue as scientific platforms, but in my district, a lot of 
oil wells were drilled in the 1920s; they have gone through 
maybe 10 or 15 different owners. And if someone decides that 
they are going to bring a lawsuit for a damage that is 
occurring currently, they track back through every single owner 
and they list them all, because the outcome has nothing to do 
with right or wrong, it has to do with who has got the money to 
pay anything.
    And so, while I support your efforts, I think that the 
concern of the manufacturers is not only if Shell builds a 
platform, not only Shell needs to be concerned, but also the 
people who did the welding on it need to be concerned; the 
people need to be concerned who maybe just trucked, that 
floated the steel to the location. Because the nature of our 
litigious society is that everyone is going to be involved. And 
so I think that is going to be the real stumbling block. And I 
would personally leave something out there if I had the option, 
but I will guarantee that companies have experienced the 
lawsuits so deep and so painfully that they are going to cut 
these things down regardless of what your bill says if we don't 
give real protection against lawsuits. And that is the honest 
truth. Thank you, Mr. Chairman.
    Mr. Tauzin. Thank you, Mr. Pearce. I totally agree with 
you.
    Mr. Pombo. First of all, Mr. Udall. Do you have any 
questions?
    Mr. Tom Udall. No.
    Mr. Tauzin. Mr. Pombo for questions.
    Mr. Pombo. Mr. Vitter, on the west coast, we have had some 
of the marine research groups that have talked to me about 
this, and they are very interested in being able to use the 
abandoned stands in the west as part of their research. If this 
bill as it is written were proved, would that be part of this? 
Would they be allowed to use those as research stations?
    Mr. Vitter. Absolutely. Again, under this bill, we 
specifically talk about three alternative uses, which I think 
are the three biggest opportunities out there. One is 
mariculture, one is artificial reefs, but the third is 
scientific research. And that would be a specific exception put 
into what is current law, which demands that the rigs be ripped 
out within a year. So if it is going to be transferred to that 
purpose, the Secretary could waive that year requirement, the 
platform could stand, it could be used for scientific research.
    Mr. Pombo. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tauzin. Any other members seeking questions for Mr. 
Vitter? Mr. Vitter, we thank you for your presentation.
    Mr. Vitter. Thank you.
    Mr. Tauzin. And, frankly, I think you have done a great 
deal to awaken us to the problems and potentials of the rigs-
to-reefs bill. And we are going to certainly be very happy to 
work with you, as Mr. Kind said, to see if we can't move it 
forward. You are welcome, by the way, as a Member of Congress 
and a witness before these hearings, to join us at this dais if 
you would like to sit through the rest of the hearing.
    Mr. Vitter. Thank you, Mr. Chairman. I am going to do that 
actually for as long as I could stay.
    Also, to go back to your original question. Under the State 
of Louisiana program, it is not limited to State waters. And, 
in fact, most of the activity occurs in Federal waters. But the 
biggest limitation is exactly the one you are focused on: 
Because of these other issues, including liability, it is 
simply not done terribly often.
    Mr. Tauzin. I thank you, Mr. Vitter. And now would summon 
our second panel.
    Our second panel also consists of half Louisianians. In 
fact, more than half. Steve Kolian, the Department of 
Environmental Quality, and who will be joined by Dr. Paul 
Sammarco, of the Louisiana Universities Consortium. By the way, 
those of you who may not be aware of the Consortium, it is a 
consortium of universities in Louisiana that all cooperate 
together to do marine biology research, and it is located in a 
beautiful place in my district called Cocodrie. And if you want 
to go fishing, CoCo Marina is one of the best places in the 
world to take off from. So you might visit the Consortium and 
take a fishing trip out at the CoCo Marina and have a great day 
of it--a great week of it, if you really want.
    We also want to welcome Al Walker of Gulf Productions. Al 
is a diver who has been doing some productions, undersea 
productions focusing on the ecosystems around the rigs and has 
some great information to bring to this Committee.
    And because this is a fair and balanced hearing, we also 
have invited Lisa Speer of the NRDC, who is not Fox, but we are 
fair and balanced, to give us an environmental view of problems 
in oil and gas production even to this day. So we believe we 
have a balanced platform here, and we are anxious to hear from 
our witnesses.
    Before that, I didn't have to swear in Mr. Vitter because 
we believe he is telling us the truth, but I have got to swear 
the rest of you in. So if you would please stand and take the 
oath.
    [Witnesses sworn.]
    Mr. Tauzin. Then you may take seats, and I will welcome, 
first of all, Mr. Steve Kolian of the Louisiana Department of 
Environmental Quality for your statement, sir.

      STATEMENT OF STEVE KOLIAN, LOUISIANA DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. Kolian. Thank you for your time. I appreciate being 
here today. I am wondering if I am limited to this chair. Some 
of the slides I am going to be presenting, I will have to point 
out some fish on there. But--
    Mr. Tauzin. Maybe you can get someone to stand up and help 
you to point.
    Mr. Kolian. OK. Thank you.
    Mr. Tauzin. Modern technology at work here.
    Mr. Kolian. OK. There is about 4,000 oil and gas platforms 
in the Gulf of Mexico, and each one of them is home to 10 to 
20,000 to 30,000 fish. These fish you see on the slide right 
here, these are all herbivores, and they will feed right on the 
legs of the oil and gas platforms. If you could--you could see 
them right here. These are Bermuda chubs. And why don't you go 
back to that slide. These fish are one component of the 
ecosystem. They are the herbivores, there is also omnivores. 
There's things like file fish, and there is also fish that eat 
other fish. And each one of these communities are extremely 
large. They are much larger than they are in natural reefs. In 
fact, these are one of the most prolific ecosystems on the 
planet, and they are 10 to 30,000 fish in an area the size of 
half of a football field.
    If you could continue the next one.
    Are these fish merely attracted to these platforms, or are 
the platforms actually producing the fish? Some of you may have 
heard this argument before, and it is often misunderstood. And 
what I am doing here is I am pointing out the production 
aspects of the debate. One of them is, does the structure 
provide food? Also, does the structure provide protection from 
predation. And does it increase habitat? The bottom line is, 
does it increase biomass?
    One way to look at this is to look at the juvenile fish, 
how fish are reproducing in these ecosystems. There are two 
types of--basically, two types of spawning. There is fish that 
lay eggs in an area, and there is fish that will mate and they 
will--let me do this. They will come up and they will swim 
around each other and they will disperse their eggs in the 
current and the gametes will fertilize and these larvae will 
drift in the ocean for a couple of weeks. What we are finding 
is, is that we are finding juveniles of both these types of 
fish. Why don't you please transfer to the next one.
    What we have here are both these fish here are laying eggs 
right on the platform. This is a juvenile fish and this is 
bluehead wrasse. And this is a broadcast spawner. And so its 
larvae is floating in to the platform and it's transferring to 
a post-larval fish. What's happening is, is it's receiving 
signals from all those organisms that are living on the 
platform and it's telling it to change from a larvae to a post-
larval fish. And things like smell, taste, touch, and even 
sound will trigger that metamorphosis. This fish over here is 
an egg-laying fish. Why don't you proceed to the next one, 
please.
    I don't know if you could tell on here, but here they are 
in about 2 millimeters, and this is just after post-larval 
State. Those fish there and that one right there. And those are 
broadcast spawners and they may have been drifting from weeks 
or months. They may have come all the way from the Yucatan to 
reach these oil and gas platforms. Please proceed.
    Here is another, here's an example of egg-laying fish. 
These are blennies. And here's a juvenile and here's an adult. 
And we don't even know how many species of blennies are on the 
platforms. I gave an estimate of about 13 different species of 
egg-laying fish on the platforms and I--you know, there may be 
13 species of blennies on the platforms. So please proceed.
    Here's another. This is a cocoa damsel fish. The next one.
    Trigger fish, a vicious fish. This thing is laying eggs on 
the platform as well and raising the young there. Another egg-
laying fish. Next one.
    A cardinal fish laying eggs right on the platform. This is 
a community of brown cromus. These are egg-layers as well. You 
could see how successful they are. The next one.
    This is a combination of egg-laying fish and broadcast 
spawners. This fish right here is a broadcast spawner. That is 
a broadcast spawner. And these are egg layers. This is a 
broadcast spawner. We have about five different species of 
angel fish living on these platforms. That's a blue tang right 
there, another broadcast spawner. And let me remind you, these 
eggs may be coming from Key West, the Yucatan, or they could be 
coming from other platforms nearby. The larvae will drift for 
months and then, boom, it hits an oil rig and it turns into 
post-larval fish. You could see that--go back to that last one.
    That angel fish is pregnant right there, so it's always 
spawning at the oil and gas platforms. Next.
    Here is a rock beauty and a parrot fish. These are again 
broadcast spawners. And that's--go ahead. And the next one I'm 
sorry. French angel fish.
    So what I'm trying to show here is there's huge communities 
of fish that are relying on these platforms to breed, spawn, 
and grow to maturity, and also gather all their food. Next one, 
please.
    You could see the blue tang feeding on here. Next one.
    Here's again juveniles of both types of fish. These are 
blue-headed wrasse and that's a hogfish. Next one.
    You could see what I'm saying is that these larvae will 
come along and they will sense this type of an ecosystem there. 
These are wonderful devices to hide in as well. These little 
juvenile fish can keep away from predation on these platforms.
    There's 4,000 of them, and that's what it looks like 
offshore Louisiana. There virtually are only hard substrate out 
there. And during the summer we receive a hypoxic zone in which 
covers the ocean floor along here. And so what these platforms 
are doing, is they're reaching up through that layer of muck to 
provide hard substrate. And we are losing about 200 a year here 
for the next 5 years, and then it will go down to about 150 a 
year and then down to about 120 a year. So, but you could see 
right here there is a little area that has Caribbean habitat 
that that's the only place in Louisiana, offshore Louisiana 
where we have hard substrate, outside of these oil and gas 
platforms. Next one.
    This is what's occurring. They blast them out of there, and 
all the organisms that live on the platform die. Many of the 
large fish die as well. But those cryptic fish that hide right 
in there, they are all dead. And those fish that do survive, 
they lose their habitat and they may get eaten on their way to 
the next hard substrate which they require. So there is 150 to 
200 removed every year over the next 10 years, and that 
represents a significant amount of habitat loss offshore 
Louisiana, especially, because it's their only hard substrate.
    There, that shows you the distribution of removal, platform 
removal. There's--it's evenly distributed. That's how many have 
been removed so far. And so far, only 150 of those have been 
reused as artificial reefs.
    That's it for me. Thank you.
    Mr. Rehberg. [presiding.] Thank you.
    [The prepared statement of Mr. Kolian follows:]

   Statement of Steve Kolian, Louisiana Department of Environmental 
                                Quality

Environmental Significance of Oil and Gas Platforms in the Gulf of 
        Mexico
    The Gulf of Mexico is home to 4,000 oil and gas platforms. They 
produce one of the most prolific ecosystems, by area, on the planet. 
Stanley and Wilson (2000) reported that 10,000-30,000 fish reside 
around the platform in an area about half the size of a football field. 
Live rock organisms, coral, endangered species, and ``protected'' fish 
and invertebrates colonize the platform's submerged structure. Many 
blue-water platforms create complex coral reef ecosystems, comprised of 
Caribbean flora and fauna that would otherwise not exist on thousands 
of square miles of generally featureless and silty continental shelf.
    The platforms clearly produce fish rather than merely attract fish. 
An abundance of evidence suggests that they are Essential Fish Habitat 
(EFH), Coral Habitat, and Endanger Species Habitat (ESH). Over 50 
species of federally managed fish, crustaceans, and Live rock organisms 
settle and forage around the offshore structures. The ecosystems they 
create are not designated as ``protected habitat'' under any of our 
current Gulf of Mexico Fisheries Management Plans. Over 120 of them 
will be removed every year for the next 40 years.
    Post larval and juvenile reef fish can be found in remarkable 
numbers foraging in the thick mats of live rock and coral that attach 
to the platform legs. Thousands of herbivores such as Angle fish, Blue 
Tang, Chubs, and Parrotfish feed on the algae that grow on the 
platforms. Plankton pickers such as Brown Chromas, Creol Wrasse, and 
Creolfish are continously feeding on and off the platforms. The 
invertebrate community living on the platforms supports several species 
of Filefish, large schools of Spadefish, and a multitude of Sergeant 
Majors and Hogfish. Ultimately, the sharks, tuna, grouper, snapper, and 
jacks end up preying on the fish that live and feed on the platforms.
    Photographic evidence demonstrates that >12 species of egg-laying 
fish are utilizing platforms to raise their offspring. More remarkably, 
platforms are being utilized as surrogate nesting grounds for several 
species (>13) of drifting larvae. Broadcast spawners or pelagic 
spawners cast fertilize eggs to the current after mating. The offspring 
can drift for days, weeks, or even months in the larvae state. Coral 
reefs, and, in some cases, sandy habitat, trigger a sensory mechanism 
in the infant fish, that tells the fish to transform into a post-larvae 
state. Once currents guide the larvae to the platform, the presence 
sponges, hydroids, mollusks, and coral stimulate metamorphosis. After 
transformation, the post-larval fish must begin feeding or perish. The 
surface area of the sponges and other attached invertebrates is teaming 
with the essential food items for juvenal and post-larval fish, i.e. 
plankton, copepods, and amphipods.
    Oil and gas platforms represent the only reef habitat over much of 
the Louisiana continental shelf. During the summer months, much of the 
ocean floor in the region is covered with an anoxic layer of 
decomposing algae resulting from excess nitrogen draining from 
agricultural fields along the Mississippi watershed. Petroleum 
structures are incredibly important to fish in the area in that they 
are only hard substrate that rises through the anoxic layer to provide 
reef habitat, food, spawning areas, nesting areas, and mating grounds. 
Obligatory reef fish spend their entire lives on the platforms in 
search of food, reproducing and competing for territory.
Critical Habitat on Texas-Louisiana Shelf
    The platforms reside on thousands of sq miles of turbid ocean floor 
resulting from millions of year of sedimentation from the Mississippi 
and other tributaries. They provide reef fish in the region hard 
substrate and the necessary resources for survival.
Critical Habitat on Texas-Louisiana Shelf
    Many of the petroleum fields are reaching an unproductive state, 
2,000 platforms have been removed to date. Over the next 40 years, 100-
200 platforms will be removed annually. Every year, the oil and gas 
industry spends $300 million to remove platforms. In 2003, >200 
platforms will be removed, costing $400 million. Thousands of fish die, 
millions of invertebrates perish, and a reef ecosystem is lost when a 
platform is removed. Man and marine life would mutually benefit by 
leaving the structures in place.

[GRAPHIC] [TIFF OMITTED] T9399.001

[GRAPHIC] [TIFF OMITTED] T9399.002


    Mr. Rehberg. Dr. Sammarco.

                  STATEMENT OF PAUL SAMMARCO, 
            LOUISIANA UNIVERSITIES MARINE CONSORTIUM

    Dr. Sammarco. Thank you. Firstly, I would like to thank the 
honorable members of the Subcommittee for being willing to 
listen to my testimony today, and I consider it a privilege and 
an honor to be here.
    My purpose is to--I have three purposes today, and that is, 
the first is to orient the Subcommittee with respect to recent 
findings on the development of coral communities on offshore 
oil and gas platforms in the northern Gulf of Mexico; second, 
to provide evidence for increased environmental value of those 
platforms; and, third, to point out that these platforms may be 
suitable for the mariculture of corals and pharmaceutically 
valuable marine organisms.
    The coral portion of the study I have conducted with Amy 
Atchison, who is a graduate student of mine at LSU in Baton 
Rouge, and Greg Boland, in the environmental section of MMS in 
New Orleans. More recent collaborations regarding mariculture 
have been with my colleague Steve Kolian with respect to fish 
and Shirley Pomponi from the Harbor Branch Oceanographic 
Institution with respect to mariculture pharmaceutically 
valuable organisms. That's in Florida. And, MMS has supported 
the coral portion of this study for which I am most grateful.
    Can I have the next slide. Next again.
    There are tens of thousands of platforms which have been 
deployed since the 1940s. Next slide.
    There are about 4,000 which are deployed right now. Next 
slide, please.
    This region has not possessed hard substratum in shallow 
water--that is, in the northern Gulf of Mexico--certainly not 
at present sea level, for many thousands of years. The 
platforms have provided this hard substratum. Soft bottom 
substratum previously expanded around the Gulf of Mexico for 
hundreds to thousands of kilometers. So there is basically 
nothing but mud down there and a few banks which are very deep. 
Many marine organisms settle on the platforms, including 
Caribbean sponges and gorgonians and demersal fish, as Mr. 
Kolian has just shown you. Next, please.
    Preliminary observations suggested that the platforms are 
being colonized by Caribbean corals. Next, please.
    This is significant since the only major set of coral reefs 
in the northern Gulf of Mexico are the flower garden banks. 
Now, the Flower Garden Banks have now been declared a NOAA 
national marine sanctuary. They're 110 nautical miles south-
southeast of Galveston, Texas. This is the east bank which you 
are viewing the bathymetry of. These reefs are extremely 
isolated from neighboring reefs by, again, hundreds to 
thousands of kilometers. Next slide, please.
    These reefs are formed on the tops of salt domes or salt 
diapirs, and they are often associated with oil and gas 
deposits. And this is why, in our case, they are surrounded by 
oil and gas platforms. Next slide, please.
    We have surveyed 13 platforms covering about 40 to 60 
kilometer radius around the flower garden banks, the two green 
areas of flower garden banks. Next slide, please.
    We have found 11 species of Caribbean corals, eight of 
which are true, that is scleractinian; reef-building, 
hermatypic, Caribbean corals. And these corals are 
characteristic of mature coral communities. This is Madracis 
decactis, which was the most abundant coral found on the 
platforms. Next slide, please.
    The common brain coral was the second most abundant coral 
found on the platforms. Again, it's indicative of the 
development of a mature coral community and it is also a true 
reef building coral. Next, please.
    We found that coral abundance was strongly and positively 
correlated with platform age in a highly predictable fashion. 
Next slide, please.
    This was also true for biodiversity, for species diversity 
of the corals. That is, the older the platforms were, the more 
corals are on them. The coral community simply become more 
mature with the age of the platform. Next, slide, please.
    The presence of these new coral communities represents an 
expansion of coral communities into the northern Gulf of 
Mexico. Their presence also indicates the potential for 
mariculture of corals on offshore platforms because the 
conditions are right. The water temperature is right. The light 
levels are right. The turbidity is right, the salinity is 
right. And it increases the environmental value of those 
platforms, and this may have implications for decommissioning. 
Next slide, please.
    The platforms also bear a rich community of associated 
fauna and flora. Next slide.
    This includes sponges, hydroids, and soft corals. And these 
are groups which are known to harbor novel, complementary, or 
secondary metabolites. Now, these are often compounds which are 
associated with a given species. They are not like proteins or 
lipids or carbohydrates. These are individual compounds that 
are found with one or two species of organisms. Some deepwater 
sponges produce toxins, such as discodermalide. There are some 
deepwater sponges which are found in the Caribbean like this. 
This particular compound, discodermalide, has valuable anti-
cancer therapeutic properties. But also, this deepwater sponge 
is very rare, and the compound which occurs in it occurs in 
very low concentrations, and it is a large complex molecule and 
it is very difficult to synthesized.
    In fact, it can't be synthesized at this point in time to 
the best of my understanding. The only source of this 
particular compound which is, I believe, in the stage 5 of 
seven--seven stages of development in FDA for use, 
pharmaceutical use. Its only source at present is the natural 
populations, which are being taken at an inordinate rate for 
experimental at work. It would be possible to grow these 
sponges and those like them in mariculture on the platforms for 
medicinal and testing use, while alleviating exploitation 
pressure on the natural populations. Next slide, please.
    Other organisms exhibit the potential for harboring novel, 
complementary, secondary metabolites. Note the aggressive 
growth in this ascidean. All of the white that you see here is 
an ascidean called didemnid pellucidum which is a--there's a 
possibility that it's an invasive species from the Pacific, but 
it is overgrowing all of the barnacles, sponges, and everything 
else in here. In order to do that, it has to have the mechanism 
to do it and there is probably a toxic compound in it. Next 
slide, please.
    My recommendations to the Subcommittee are as follows: 
Firstly, to extend coral surveys on platforms with respect to 
geographic range throughout the northern Gulf of Mexico and 
depth to determine the full extent of coral colonization there. 
Second, to consider the extent of coral colonization when 
examining future alternatives for use of post-production 
platforms. Third, to support the sampling of the platforms for 
potentially pharmaceutically valuable organisms. And, fourthly, 
to support research and development on the use of the platforms 
for mariculture of corals and pharmaceutically valuable marine 
organisms. And I thank you very much for your attention.
    [The prepared statement of Dr. Sammarco follows:]

                    Statement of Paul W. Sammarco, 
           Louisiana Universities Marine Consortium (LUMCON)

Introduction
    Firstly, may I thank the honorable members of the House 
Subcommittee on Energy and Natural Resources for allowing me to make 
this presentation today. I consider it a privilege and an honor.
    The purpose of presentation is as follows: 1) to orient the 
Subcommittee with respect to recent findings on the development of 
coral communities on offshore oil and gas platforms in the northern 
Gulf of Mexico; 2) to provide evidence for an increased environmental 
value of those platforms because of these developments; and 3) to point 
out that these platforms may be suitable for the mariculture of corals 
and pharmaceutically valuable marine organisms.
    The coral portion of this study was conducted with Amy Atchison (my 
graduate student in the Department of Oceanography and Coastal Studies 
at Louisiana State University) and Greg Boland of the Environmental 
Section of MMS in New Orleans. Remarks regarding mariculture stem from 
more recent collaborations with Steve Kolian (Eco-Rigs, Intl.) and 
Shirley Pomponi (Harbor Branch Oceanographic Institution). The coral 
portion of this study has been conducted under the auspices of MMS, and 
I am most grateful for their support, insight, and cooperation.

Development of Coral Communities on Oil and Gas Platforms in the Gulf 
        of Mexico
    Since the 1940s, 40,000 wells have been drilled, and tens of 
thousands of platforms have been deployed. 4,000 are currently in the 
northern Gulf of Mexico. This region has not possessed hard-substratum 
in shallow water, certainly not at its present sea level, for many 
thousands of years. In recent decades, the oil and gas platforms have 
provided this. Previously, deeper water soft bottom substratum extended 
for hundreds to thousands of kms.
    The platforms have provided substratum for many marine organisms to 
settle on. These include a wide variety of Caribbean sponges, 
gorgonians, demersal fish, and the like. Preliminary observations 
suggested that platforms were being colonized by Caribbean corals as 
wells. This observation was significant for several reasons. Firstly, 
corals are protected from take and harvest by federal law and are also 
prohibited from trade by international treaty. Secondly, the only major 
set of coral reefs in the northern Gulf of Mexico is the Flower Garden 
Banks (FGB), which occur 110 nm S-SE of Galveston, TX. These reefs have 
now been declared a NOAA National Marine Sanctuary. They are isolated 
from neighboring reefs by hundreds to thousands of kms. They formed on 
crests of two salt domes (diapirs), raised up through the crust of the 
earth. Oil and gas deposits are often associated with such structures, 
and, indeed, this was the case with the Flower Garden Banks. These 
reefs are now surrounded by oil and gas platforms.
    In our study, we have surveyed 13 drilling platforms, covering a 
40-60 km radius around the FGB. Thus far, we have found a total of 11 
Caribbean coral species, eight of which were scleractinian (true), 
hermatypic (reef-building) corals. Most of the species we have found 
are characteristic of mature coral communities. Madracis decactis was 
the dominant coral. The second most abundant coral was the common brain 
coral, Diploria strigosa. Both of these species are indicative of the 
development of a mature coral community. Pioneer species--those 
characteristic of young, disturbed, or newly developed communities, 
such as Agaricia spp. or Porites spp., were rare or absent, which is 
unusual.
    We found that coral abundance was strongly, positively associated 
with platform age, in a highly predictable fashion. Coral species 
diversity exhibited the same relationship, increasing strongly with age 
of the platforms, indicating that the coral communities became more 
mature with age. This increases the environmental value of these 
platforms and may have implications for their decommissioning.
    The presence of these new coral communities indicates an expansion 
of these populations through the northern Gulf of Mexico. Due to the 
limited sampling we performed in this pilot project, however, we do not 
know to what extent.
    In addition, the mere presence of these corals indicates that 
mariculture of corals on offshore platforms is possible. The conditions 
are right for colonization and growth of corals there, and mariculture 
of these organisms would fill a market demand already present in the 
U.S. while helping to decrease exploitation pressure both on our own 
reefs and those in other countries.

Development of Associated Reef Fauna
    Along with corals, the platforms also possess a rich variety of 
associated fauna and flora. This includes sponges, hydroids, soft 
corals, and other organisms. Some of these groups are known to harbor 
novel complementary/secondary metabolites. These are compounds which 
are found usually only in that one species, often having a specific 
function for that species. In many cases, these compounds are toxic. In 
some cases, we have highly valuable therapeutic use for those 
compounds. Probably the most famous example of such a metabolite is 
penicillin, which was found a century ago in bread mold.
    Some deep-water sponges produce complementary metabolites such as 
these. For example, one produces discodermalide, a toxin which is now 
known to have valuable anti-cancer properties. Unfortunately, this 
deep-water sponge is quite rare. In addition, the compound occurs in 
low concentrations and is difficult to synthesize. Thus, there is a 
high demand on the natural populations of this scarce natural resource. 
It would be possible to grow these sponges in mariculture on the 
platforms, while simultaneously alleviating exploitation pressure on 
the natural populations.
    There are other organisms which occur on the platforms which have 
exhibited aggressive growth characteristics which suggest that they 
harbor novel, toxic, complementary/secondary metabolites. One of these 
is a didemnid ascidean.

Recommendations
    In lieu of these new data which have come to light, I would 
recommend the following:
    <bullet> Extend coral surveys on platforms with respect to 
geographic range and depth to determine the full extent of coral 
colonization throughout the northern Gulf of Mexico;
    <bullet> Once this information is available, and a larger database 
is available for decision-making, consider the extent of coral 
colonization prior to decommissioning of older platforms, where such is 
appropriate;
    <bullet> Sample the platforms for potentially pharmaceutically 
valuable organisms; and
    <bullet> Permit and support research and development regarding the 
use of platforms for mariculture of corals and pharmaceutically 
valuable marine organisms.
    I thank you very much for your attention.
                                 ______
                                 
    [A statement submitted for the record by Dr. Sammarco 
follows:]

        Statement submitted for the record by Paul W. Sammarco, 
           Louisiana Universities Marine Consortium (LUMCON)

Introduction
    It was a pleasure being able to converse with the Subcommittee 
members on the subject of coral reef communities on oil and gas 
platforms in the Gulf of Mexico. A number of issues were raised during 
our discussions by both Subcommittee and Panel members. I would like to 
add some information regarding those issues, for purposes of 
clarification.

1. Mercury (Hg) on Platforms and the Contamination of Associated 
        Organisms
    I am aware of the reports of mercury in the water column and in the 
tissue of fish and other fauna associated with platforms, referred to 
by one of the panelists. I am also aware of additional research which 
has been performed investigating this issue. It is my understanding 
that there is equivocal evidence regarding both environmental mercury 
contamination and contamination of associated fauna and flora. For 
example, Windome and Cranmer (1998) found no contamination of fish 
associated with platforms. On the other hand, Pankratova et al. (1994) 
did find contamination of the environment, but only during active 
drilling operations. Dethlefsen and Tiews (1986) reported negative 
effects of mercury on fish fecundity (reproduction) derived from oil 
pollution in the North Sea. MacDonald et al. (1988) report that mercury 
from drilling muds contaminates crab embryos and larvae and lowers 
their fecundity. Published studies particular to the Gulf of Mexico are 
scarce. This may be an area which requires additional investigation in 
the Gulf.
    One of the panelists implied that contamination of cultured fish on 
platforms may be a problem. The potential mariculture activities 
discussed were proposed to occur on platforms primarily during the 
post-production phase. Potential contamination may be expected to occur 
during the drilling or removal phase due to suspension or resuspension 
of sediments; therefore, contamination may not be of concern during the 
stable, post-production phase of the platform.
    You may find some of the following references useful:
    <bullet> Dethlefsen, V. and K. Tiews. 1986. Impact of North Sea 
pollution on fish and fisheries. Veroeff. Inst. Kuest.-Bunnenfishc. 
Hamb., Vol. 93, 51 pp.
    <bullet> MacDonald, J.M., J.D. Shields, and R.K. Zimmer-Faust. 
1988. Acute toxicities of eleven metals to early life-history stages of 
the yellow crab Cancer anthonyi. Mar. Biol. 98: 201-207.
    <bullet> Pankratova, T.M., L.K. Sebakh, and M.S. Finkel'Shtejn. 
1994. Assessment distribution and migration ways of heavy metals in the 
Karkinitsky Bay ecosystem. In, V.N. Yakovlev (ed.), Main Results of 
YugNIRO complex research in the Azov-Black Seas Region and the World 
Ocean in 1993. Tr. YugNIRO/Proc. South. Sci. Res. Inst. Mar. Fish. 
Ocean, Vol. 40, 1994, pp. 150-156.
    <bullet> Siegel, B.Z., et. al. 1991. The protection of 
invertebrates, fish, and vascular plants against inorganic mercury 
poisoning by sulfur and selenium derivatives. Archives of Environmental 
Contamination and Toxicology 20: 241-246. (A review).
    <bullet> Windom, H.L., and G. Cranmer. 1998. Lack of observed 
impacts of gas production of Bongkot Field, Thailand on marine biota. 
Mar. Pollut. Bull. 36 (10): 799-807.

2. Fish Stock Enhancement
    From my personal observations on platforms, I have no doubt that 
the platforms are producing fish, not merely attracting them. Many of 
the fish located on the platforms are demersal reef fish and are not 
behaviorally adapted to migrate to these platforms from distant reefs, 
or even other nearby platforms. They arrive on the platforms as larvae, 
settle there, grow into adults, and reproduce there. They are rigidly 
associated with their hard-bottom. I have also witnessed nests and egg-
defense in some demersal fish on the platforms.

3. Platforms as Artificial Reefs
    One of the panelists referred to the use of platforms as artificial 
reefs as ``creating an underwater junkyard.'' This is an 
anthropomorphic view of this conversion. The sub-surface portions of 
the platform jackets act as artificial reefs by creating a three-
dimensionally complex hard substratum on a feature-less soft bottom. 
Extensive flats of soft-bottom cannot compare to hard-bottom in terms 
of fish or benthic invertebrate production. This new hard bottom 
creates habitat for fish and other organisms which would otherwise not 
be able to settle, grow, and reproduce there. The fish do not perceive 
the substratum as a ``junkyard''; they merely perceive it as new 
substrate, available for colonization.

4. Conversion of Platforms to Artificial Reefs, and Transfer of 
        Liability
    Through conversations with Minerals Management Service personnel, I 
have determined that platforms may be donated by their original owners 
to the joint federal/State ``Rigs to Reefs'' programs within a number 
of states, including Louisiana, Texas, Mississippi, and Alabama. 
Platforms are first identified as potential donations by the owner. The 
platform may then be designated as acceptable by the State and the U.S. 
Army Corps of Engineers. The platform is then approved for transfer to 
the program. It may be: a) left in place, as is; b) cut at a depth of 
85 ft., and the upper portion toppled in place; c) cut 15 ft below the 
surface and toppled entirely in place; and d) moved to a State 
artificial reef site and toppled.
    Perhaps most importantly, the original permit is issued to the 
owner by the Corps. This carries with it liability for the owner. 
During the transfer to the State ``Rigs to Reefs'' program, the 
platform is re-permitted to the State, and liability is also 
transferred to the State. MMS relinquishes its authority over 
regulation of the platforms once the platforms move into the post-
production phase and are transferred to the State for use in this 
program.

5. Effects of Seismic Surveys on Fauna in the Vicinity
    It should be noted that the mariculture activities discussed are 
proposed to take place on platforms during their post-production phase. 
Therefore, seismic surveys, associated with exploration and drilling, 
are not an issue in this regard.

6. Oil Spills
    It was suggested that oil spills may have a negative effect on the 
proposed mariculture activities. Once again, the proposed mariculture 
activities are proposed to take place during the post-production phase 
for a platform, and such should not be a concern.

7. Legal Status of Scleractinian and Other Corals
    Corals are protected within the U.S. from take and harvest by the 
Magnuson-Stevens Act. They are also protected from trade by 
international treaty. The OCS Lands Act requires that any oil and gas 
platform be decommissioned within one year after the cessation of all 
activities within the oil and gas lease.
    The corals which my research team are finding on oil and gas 
platforms in the Gulf of Mexico are primarily scleractinian (true), 
hermatypic (reef-building) corals, protected by the first two pieces of 
legislation mentioned above. They are also older, larger colonies of 
reproductive age. This presents a problem, as the third piece of 
legislation appears to be countermanding the other(s). In my opinion, 
these pieces of legislation may need to be reviewed in concert, in 
light of these new data.
    I hope this information will be of use to you. If you have any 
questions or require any additional information, please do not hesitate 
to contact me.
                                 ______
                                 
    Mr. Rehberg. Thank you. Mr. Walker.

          STATEMENT OF ALLEN WALKER, GULF PRODUCTIONS

    Mr. Walker. My name's Allen Walker, and I really appreciate 
you guys having us here today because we really believe in what 
we're doing here. There's something happening in the Gulf of 
Mexico, and it needs a change. In 10 years, half the ecosystem 
will be gone due to expiring oil rigs. I've been diving and 
fishing the Gulf of Mexico for over 20 years. I started a 
company by the name of Gulf Productions because of my love of 
the underwater world. My purpose for starting this company is 
to assist science, industry, and the general public by making 
them aware of the positive effects oil and gas drilling brings 
to the underwater environment.
    My passion is to educate people about what I witness on a 
daily basis in the Gulf of Mexico. This passion soon turned 
into a goal, and that goal is to save these oil rigs. I set out 
on this goal by picking up a camera and started obtaining 100 
percent factual footage of the underwater environment. There is 
no doubt, after reviewing my footage, that drilling for oil in 
the Gulf has greatly enhanced the eco system beyond anybody's 
wildest dreams. I would go as far as saying it is mankind's 
contribution to the largest environment ever.
    The multitude of microorganisms, sponges, fish species, as 
well as mammals actually depend on these structures to survive. 
There are oil platforms that are scheduled to be cut down as we 
speak today. With every removal of these remarkable givers of 
life, an unimaginable amount of life will perish. I have 
witnessed crimes against nature as an entire eco system changed 
with the removal of one single oil platform. There are 
structures going that host very large migrations of lobster 
that use them as an underwater motel and reproduce their genes. 
I know it's not only because of thousands of hours logged 
beneath the Gulf, but because of gentlemen in the '70s and '80s 
who I still dive with today who have handed their knowledge 
down to me.
    I have dove platforms from Florida to west Texas for over 
20 years and have seen the difference in the waters that have 
less structures. In makeshift structures such as old Army 
tanks, for example, there is no comparison in marine life which 
surrounds them, which is the opposite case of that of the oil 
platforms.
    My company prides itself on being aware of all migrations 
of fish, mammal species and microorganisms. The most important 
thing to me is to bring to the forefront that so much is going 
undiscovered every day that could better mankind. For example, 
it gives me much pleasure that I could play a role in finding a 
cure for cancer by seeking out and finding rare sponges with 
medicinal use that could be responsible for saving somebody's 
life. I recently had the pleasure of working with Dr. Jose 
Castro, a renowned shark scientist, and the Discovery Channel. 
I was able to find and film a 500-pound-plus pregnant female 
for 6 hours at an oil and gas platform. This is the first time 
this event has ever been captured on film or recorded for 
science.
    At this point I would like to share my opinion with you. I 
believe that cutting down an oil rig can be compared to cutting 
down a forest of 1,000-year-old oak trees, and I feel the 
structures should remain after minerals are extracted, and more 
should be employed to enhance the eco system and the economy.
    Thank you very much.
    Mr. Rehberg. Thank you.
    [The prepared statement of Mr. Walker follows:]

       Statement of Allen Walker, Founder, Gulf Productions Inc.

    Hello. My name is Allen Walker and I would like to say it is an 
honor to be here with you today. There is something happening offshore 
and it has to change. In ten years, half an ecosystem will be gone due 
to expiring rigs. I have been diving and fishing in the Gulf of Mexico 
for over twenty years.
    I started a company by the name of Gulf Productions, Inc. because 
of my love of the underwater world. My purpose for starting this 
company is to assist science, industry, and the general public by 
making them aware of the positive effects oil and gas drilling brings 
to the underwater environment.
    My passion is to educate people about what I witness on a daily 
basis in the Gulf of Mexico. This passion soon turned into a goal. And 
that goal is to save the oil rigs. I set out on this goal with camera 
in hand to start obtaining factual footage of the underwater 
environment. There is no doubt that after reviewing my footage the 
drilling for oil in the Gulf has greatly enhanced the marine ecosystem 
beyond anyone's wildest dreams. I would go as far as saying it is 
mankind's largest contribution to Mother Nature ever.
    The multitude of microorganisms, sponges, fish species, as well as 
mammals, actually depend on these structures to survive. There are oil 
platforms that are scheduled to be cut down as we speak here today. 
With every removal of these remarkable givers of life, an unimaginable 
amount of life will perish.
    I have witnessed crimes against nature as an entire ecosystem 
changed with the removal of a single oil rig. There are structures, for 
example, that host very large migrations of lobster that uses them as 
under water motels to nest and reproduce there genes. I know this not 
only because of my thousands of hours logged beneath the Gulf, but from 
gentlemen in their 70's that have passed on their eye-witnessed 
accounts of similar things as well.
    I have dove platforms from east Florida to west Texas for over 20 
years and I have seen the difference in waters that have less 
structures. In make shift structures such as old army tanks, there is 
clearly no comparison in marine life that surrounds them, which is the 
opposite case than that of the oil platforms.
    My company prides itself on being aware of all migrations of fish, 
mammal species, and microorganisms. The most important thing to me to 
bring to the forefront is that so much is going undiscovered every day 
that could better mankind. For example, it gives me much pleasure that 
I could play a role in the research of finding a cure for cancer by 
seeking out and finding rare sponges with medicinal use and culturing 
these organisms, which could save a person's life.
    I recently had the pleasure of working with Dr. Jose Castro, a 
renowned shark scientist, and the Discovery Channel. I was able to find 
and film a 500 pound-plus pregnant female for six hours at an oil and 
gas platform. This is the first time this even has been captured on 
film or recorded for science.
    At this point I would like to share my opinion with you. I believe 
that cutting down an oil rig can be compared to cutting down a forest 
of thousand-year-old oak trees. I feel that structures should remain 
after minerals are extracted and more should be deployed to enhance the 
ecosystem as well as the economy.
                                 ______
                                 
    Mr. Rehberg. Ms. Speer.

    STATEMENT OF LISA SPEER, SENIOR POLICY ANALYST, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Ms. Speer. Thank you, Mr. Chairman, and thank you very much 
for the opportunity to be here today. My name is Lisa Speer, 
and I'm senior policy analyst with the Natural Resources 
Defense Council. My testimony here today addresses the 
environmental aspects of modern oil and gas development, but 
before I begin I wanted to touch on a couple of points that 
have been raised by the previous witnesses and offer a somewhat 
different perspective on the use of offshore oil and gas rigs.
    First of all, the issue that Mr. Kind raised earlier is a 
critical one. There is clear evidence of elevated levels of 
mercury surrounding rigs in the Gulf. There is no dispute about 
that. One issue is the extent to which that mercury is 
accumulating through the food chain and affecting organisms. 
That is the subject of a number of studies, but until those 
issues get further along in terms of resolution, I think 
there's some real concerns there.
    Second, there are, I believe, differing opinions in the 
scientific community about the value of these rigs to 
ecological health of regional oceans. For example, a blue 
ribbon panel was convened out in California called the Select 
Scientific Advisory Committee on the Decommissioning of Oil 
Rigs by the University of California, and they concluded, and I 
quote: The interdependence of populations means that impacts at 
any one location must be considered in the context of the 
regional set of local populations. Most assessments of possible 
biological effects of platforms are fundamentally flawed 
because they focus on local and not regional effects. At 
present, there is not any sound scientific evidence to support 
the idea that platforms enhance regional stocks of marine 
species. So, again, there's scientific issues around, and I'd 
like to submit this study for the record, if I might.
    [NOTE; The report, ``Ecological Issues Related to 
Decommissioning of California's Offshore Production 
Platforms,'' by the Select Scientific Advisory Committee on 
Decommissioning, University of California, has been retained in 
the Committee's official files.]
    Ms. Speer. More broadly, the idea of leaving junked 
drilling rigs on the ocean floor is one that I think deserves 
some attention and scrutiny. One can throw batteries out on the 
ocean floor, and stuff will grow on them. That doesn't mean 
it's a good idea. The use of the ocean floor as a junk pile is 
something I think we have to look at quite carefully before we 
move ahead.
    The issues of liability are significant. Mr. Tauzin raised 
the question of whether stockholders would like to assume the 
responsibility of rigs that are decommissioned and left in the 
water. Taxpayers may also have similar issues with assuming 
liability from rigs left in water where the liability is 
transferred to the State.
    Having raised those few issues, I'd like to turn now to the 
focus of my testimony, which is the environmental effects of 
current oil and gas activities.
    The last two decades have unquestionably witnessed a 
dramatic improvement in the way oil and gas and the industry 
operates, both onshore and offshore. No longer are millions of 
gallons of toxic waste dumped into sensitive tundra ponds or 
the incredibly productive wetlands of coastal Louisiana. Spill 
preparedness has improved, and improved technologies such as 
the use of ice roads and pads instead of gravel in the Arctic, 
as well as coil tubing and a host of other technologies, have 
in many cases changed and in many cases reduced the effects of 
oil development on the environment.
    Having said that, there are an awful lot of issues that 
remain out there. Some of those issues stem from the continued 
use of old technologies, and some stem from the use of new 
technologies, which, while ameliorating some impacts, causes 
others. I'd like to highlight some of the more important of 
these issues in looking at offshore first.
    Oil and gas activities have a number of very important 
impacts at all stages of exploration, production and 
development. At the exploratory stage, for example, seismic 
surveys have been shown to significantly affect gray whales, 
sperm whales, beaked whales, and bowheads, and can injure fish 
at substantial distances. The concerns about seismic surveys 
are one of the reasons why we have opposed provisions that were 
stripped out of the House energy bill to allow an inventory to 
be taken of the U.S. Outer continental shelf using 3-D seismic 
technology.
    Drilling entails the generation of tremendous amounts of 
waste, an average of 180,000 gallons every single well. That 
waste contains toxic metals, including mercury, cadmium, and 
lead, and, as I said earlier, significantly higher 
concentrations of these metals have been found on these 
offshore platforms around the Gulf of Mexico. These raise 
concerns about the contamination of fish, but also of humans 
that eat the fish.
    Air pollution and production operations also generate large 
amounts of air pollution--drilling and production operations 
produce large amounts of air pollution, including NOx, SOx, 
VOCs and carbon monoxide.
    Oil spills. According to statistics compiled by the 
Interior Department, 3 million gallons of oil spilled from the 
OCS oil and gas operations in 73 incidents between 1980 and 
1999. Unfortunately, as noted by a recent National Academy of 
Sciences report, we remain unable to clean up a significant 
portion of oil that has spilled into marine waters, and this 
problem is particularly significant in the Arctic under 
conditions of broken ice where the industry has not 
demonstrated basically any capability to clean that oil up.
    People usually associate oil spills with oil development, 
but gas development can also result in spills, both from 
operations utilizing fuels of various kinds, but also because 
you never know whether you're going to find oil or gas when you 
drill. And that is what the industry tells us, and that is, in 
fact, true. We know of no lease in this country that prohibits 
the development of oil should oil be found in a gas-prone area, 
and we know of no company ever agreeing to such restriction in 
the history of the OCS program.
    Onshore infrastructure, processing facilities, roads, 
pipelines, all of those things can have significant effects on 
the coastal zone. And the industrial character of offshore oil 
and gas is often at odds with the nature and economy of local 
communities along the coast.
    Concerns over these and other environmental consequences of 
offshore oil and gas has led Congress to impose restrictions on 
OCS activities in sensitive areas of the Nation's coast ever 
since 1981. These restrictions, the moratoria, have been 
endorsed by a broad array of officials at every level of 
government and of all political persuasions, including former 
President Bush, President Clinton and current President Bush, 
who included the moratoria in his Fiscal Year '04 budget 
request.
    We strongly support the continuation of the moratoria, 
especially in Bristol Bay. Bristol Bay is the single most 
important area of the outer continental shelf for marine 
resources, according to the National Marine Fishery Service.
    Turning to onshore development, I'd like to quickly focus 
on the area of the North, which is the area of my expertise. In 
March of this year, the National Research Council of the 
National Academy of Sciences issued a new report entitled The 
Cumulative Effects of Oil and Gas Activities on Alaska's North 
Slope. The report documents the environmental and cultural 
damage that has occurred on the North Slope over the last three 
decades. The report found that although new technologies have 
reduced some damage, despite this the expansion of oil 
development into new areas is certain to exacerbate existing 
effects and generate new ones.
    A few of the more important findings include that 
development has directly effected some 17,000 acres spread over 
an area the size of the land area of Rhode Island. The 
environmental effects of this development are not limited to 
the footprint of the area actually covered by the gravel, but 
extend far beyond the footprint in many instances.
    Only about 100 acres of this area has been restored. The 
Committee concluded that it was unlikely that most disturbed 
habitat on the North Slope will ever be restored, unless 
current conditions change dramatically, and because natural 
recovery in the Arctic is slow, the effects of unrestored 
structures are likely to persist for centuries.
    There are other effects on animals, on wilderness, and 
these effects are felt not just in the Arctic of Alaska, but 
also throughout the western United States, where development is 
rapidly progressing.
    In closing, Mr. Chairman, the environmental consequences of 
oil and gas development onshore and offshore are one reason why 
NRDC and other environmental groups support a different 
approach to energy security, one that shifts reliance away from 
fossil fuels and toward sustainable energy uses. It's 
unfortunate, but it's true, that although we've made progress 
on the environmental safety of oil and gas operations, we have 
a long way to go before environmentally sound oil development 
is no longer an oxymoron.
    Thank you.
    Mr. Rehberg. Thank you.
    [The prepared statement of Ms. Speer follows:]

            Statement of Lisa Speer, Senior Policy Analyst, 
                   Natural Resources Defense Council

    My name is Lisa Speer. I am Senior Policy Analyst with the Natural 
Resources Defense Council (NRDC) in New York. NRDC is a national 
nonprofit organization dedicated to protecting public health and the 
environment with more than a million members and e-activists around the 
country. My testimony today addresses environmental issues surrounding 
oil and natural gas exploration, development and production.
Background
    The United States has 5 percent of the world's population, but 
consumes nearly a quarter of the world's energy supply. Two distinct 
visions of an energy policy for the United States have emerged in the 
current debate over how to meet this demand. One vision focuses chiefly 
on extracting as much energy as possible, mostly in fossil fuel form 
(oil, coal and natural gas), in hopes that supply can catch up with 
demand. The alternative vision, however, calls for encouraging 
innovation and new technology to meet our energy needs in an 
environmentally responsible manner. This vision emphasizes efficient 
use of energy, and places priority on using energy resources that are 
least damaging to our environment. It promotes economic growth and 
American industrial competitiveness. This energy path would not force 
consumers to make sacrifices; instead it relies on improved 
technologies that will eliminate waste while increasing productivity 
and comfort. Such an approach will decrease America's reliance on 
foreign sources of energy in the near- and long-term, provide for 
America's energy needs, buffer the economy against short-term swings in 
the market, and protect the environment from the effects of oil and gas 
exploration, production and transportation, the subject of today's 
hearing.
The evolution of industry practices
    The last two decades have witnessed important improvements in the 
way the oil and gas industry operates, both onshore and offshore. No 
longer are millions of gallons of toxic wastes routinely dumped 
untreated into Alaska's sensitive tundra ponds or Louisiana's 
productive coastal wetlands. Oil-based drilling fluids are no longer 
allowed to pollute the waters off our coasts. Spill preparedness has 
improved, and innovative technologies such as the use of coiled tubing, 
ice roads and pads, and more accurate exploration methods have 
significantly changed, and in many cases reduced, environmental 
effects.
    Despite this progress, however, critical environmental problems 
remain. Some stem from the continued use of old technologies, others 
result from newer practices that, while ameliorating some impacts, 
create others. The following is a brief overview of some of the more 
important issues offshore and onshore. The onshore portion of this 
testimony focuses on Alaska's North Slope.
Environmental consequences of offshore development
    Seismic exploration: Recent scientific investigations indicate that 
seismic surveys can seriously affect gray whales, sperm whales, beaked 
whales and bowheads, <SUP>1</SUP> and can injure fish at substantial 
distances. The ears of fish are particularly vulnerable, and many 
species rely heavily on their hearing to avoid predators, locate prey, 
communicate, and sense their environment. Mortality is also possible in 
species that, like salmon, have swim bladders, which have been shown to 
rupture on exposure to intense sounds. <SUP>2</SUP> Salmon are of 
particular concern because of the endangered status of some populations 
off the Atlantic and Pacific coasts, and because of their apparent 
inability to detect and avoid low-frequency sound until damaging levels 
are reached.
---------------------------------------------------------------------------
    \1\ See, e.g., NAS Report, p. 164 (bowheads); National Marine 
Fisheries Service, Southeast Regional Office, 2002. Final Biological 
Opinion, Gulf of Mexico Outer Continental Shelf Lease Sale 184, pages 
37-48 (sperm whales).
    \2\ McCauley, R.D., J. Fewtrell and A.N. Popper, 2003. ``High 
intensity anthropogenic sound damages fish ears.'' J.Acoust.Coc.Am. 
113, January, 2003.
---------------------------------------------------------------------------
    Onshore damage: The industrial infrastructure associated with 
offshore oil or gas--roads, pipelines, processing facilities, etc.--can 
cause significant harm to sensitive coastal environments. For example, 
OCS pipelines crossing coastal wetlands in the Gulf of Mexico are 
estimated to have destroyed more coastal salt marsh than can be found 
in the stretch of land running from New Jersey through Maine. 
<SUP>3</SUP> Moreover, the industrial character of offshore oil and gas 
development is often at odds with the existing economic base of the 
affected coastal communities, many of which rely on tourism, coastal 
recreation and fishing.
---------------------------------------------------------------------------
    \3\ Boesch and Rabalais, eds., ``The Long-term Effects of Offshore 
Oil and Gas Development: An Assessment and a Research Strategy.'' A 
Report to NOAA, National Marine Pollution Program Office at 13-11.
---------------------------------------------------------------------------
    Water pollution: Drilling muds are used to lubricate drill bits, 
maintain downhole pressure, and serve other functions. Drill cuttings 
are pieces of rock ground by the bit and brought up from the well along 
with used mud. Massive amounts of waste muds and cuttings are generated 
by drilling operations--an average of 180,000 gallons per well. 
<SUP>4</SUP> Most of this waste is dumped untreated into surrounding 
waters. Drilling muds contain toxic metals, including mercury, lead and 
cadmium. Significant concentrations of these metals have been observed 
around drilling sites, <SUP>5</SUP> raising concerns regarding the 
contamination of fish and other marine life, with potential 
implications for human consumption of fish.
---------------------------------------------------------------------------
    \4\ MMS, 2000. Gulf of Mexico OCS Oil and Gas Lease Sale 181, Draft 
Environmental Impact Statement (DEIS), p. IV-50.
    \5\ Id.
---------------------------------------------------------------------------
    A second major polluting discharge is ``produced water,'' the water 
brought up from a well along with oil and gas. Offshore operations 
generate large amounts of produced water. The Minerals Management 
Service estimates that each offshore Gulf platform discharges hundreds 
of thousands of gallons of produced water every day. <SUP>6</SUP> 
Produced water typically contains a variety of toxic pollutants, 
including benzene, arsenic, lead, naphthalene, zinc and toluene, and 
can contain varying amounts of radioactive pollutants. All major field 
research programs investigating the fate and effects of produced water 
discharges have detected petroleum hydrocarbons, toxic metals and 
radium in the water column down-current from the discharge. 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \6\ Id., p. IV-32.
    \7\ Id., p. IV-32-33.
---------------------------------------------------------------------------
    Air pollution: Drilling an average exploration well generates some 
50 tons of nitrogen oxides (NOx), 13 tons of carbon monoxide, 6 tons of 
sulfur dioxide, and 5 tons of volatile organic hydrocarbons. Each OCS 
platform generates more than 50 tons per year of NOx, 11 tons of carbon 
monoxide, 8 tons of sulfur dioxide and 38 tons of volatile organic 
hydrocarbons every year. <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Id., p. IV-40.
---------------------------------------------------------------------------
    Oil spills: According to statistics compiled by the Department of 
the Interior, some 3 million gallons of oil spilled from OCS oil and 
gas operations in 73 incidents between 1980 and 1999. <SUP>9</SUP> Oil 
is extremely toxic to a wide variety of marine species. Unfortunately, 
as noted by a recent National Academy of Sciences study, current 
cleanup methods are incapable of removing more than a small fraction of 
oil spilled in marine waters. Spills pose a particular problem in the 
arctic, where the industry has not demonstrated the ability to clean up 
oil spilled in conditions of broken ice. <SUP>10</SUP>
---------------------------------------------------------------------------
    \9\ MMS, 2000. Gulf of Mexico OCS Oil and Gas Lease Sale 181, Draft 
Environmental Impact Statement (DEIS), pp. IV-50.
    \10\ National Academy of Sciences, National Research Council, 2003. 
Cumulative Environmental Effects of Oil and Gas Activities on Alaska's 
North Slope, p. 15.
---------------------------------------------------------------------------
    Oil spills are typically associated with the exploration, 
production and particularly transportation of offshore oil. But even in 
gas-prone areas, spills are an issue. If offshore areas are leased for 
gas exploration there is always the possibility that oil also will be 
found. We no of no instance where a lease prohibits an oil company from 
developing oil if oil is found in a ``gas prone'' region.
    Concerns over these and other environmental consequences of 
offshore oil and gas development has led Congress to impose 
restrictions on OCS activities in sensitive areas off the nation's 
coasts every year since 1981. These moratoria now protect the east and 
west coasts of the U.S., Bristol Bay, Alaska, and most of the Eastern 
Gulf of Mexico. The moratoria reflect a clearly established consensus 
on the appropriateness of OCS activities in most areas of the country, 
and have been endorsed by an array of elected officials from all levels 
of government and diverse political persuasions, including former 
Presidents George H.W. Bush and Clinton and the current President Bush, 
who included the moratorium in his FY ``04 budget request to Congress. 
We strongly support continuation of the moratoria, and oppose recent 
attempts to permit seismic exploration in the moratorium areas.
Environmental Consequences of Onshore Oil Development on Alaska's North 
        Slope
    In March of this year, the National Research Council of the 
National Academy of Sciences issued a report entitled, The Cumulative 
Environmental Effects of Oil and Gas Activities on Alaska's North Slope 
(``NAS report''). The report documents the environmental and cultural 
damage that has accumulated over three decades of oil development in 
the area. New technologies have reduced some damage, but despite this, 
the NAS report concluded that expansion into new areas is certain to 
exacerbate existing effects and generate new ones. <SUP>11</SUP>
---------------------------------------------------------------------------
    \11\ Id., p. 21.
---------------------------------------------------------------------------
    Examples of effects that continue despite new technologies include 
the following (numbers in parentheses refer to page numbers in the Pre-
publication version of the NAS report):
    Footprint: Development has directly affected 17,000 acres spread 
across an area roughly the size of the land area of Rhode Island (67, 
70). The environmental effects of oil development are not limited to 
the ``footprint'' (actual area covered by a structure), but occur at 
distances that vary depending on the environmental component affected, 
from a few miles (animals), to much farther (visual effects and seismic 
effects on whales) (8 and 15). For example, roads kill tundra 
vegetation beneath them, but they can also displace wildlife, impede 
wildlife movements, kill surrounding vegetation through the dust they 
generate, change hydrological patterns and destroy wilderness values 
(123 and 126);
    Restoration: Only about 100 acres (1%) of the habitat affected by 
gravel fill on the North Slope have been restored (15). The report 
estimates that the costs of removing facilities and restoring habitat 
will run in the billions of dollars. No money has been set aside for 
this purpose by either the oil companies or the government (155). The 
Committee concluded that it is unlikely that most disturbed habitat on 
the North Slope will ever be restored unless current conditions change 
substantially (16). Because natural recovery in the arctic is slow, 
effects of unrestored structures are likely to persist for centuries, 
and will accumulate as new structures are added (16);
    Climate change and new technologies: Climate change will continue 
to affect the usefulness of many oilfield technologies and how they 
affect the environment (8). For example, the length of the winter 
season when seismic and other off road tundra travel is permitted, and 
ice roads and pads are constructed, has been steadily decreasing since 
the 1970's (137 and 138) and will likely to continue to do so. The 
coastline of the North Slope is presently eroding at a rate of 8 feet 
per year, the fastest rate of coastline erosion in the United States, 
and this will accelerate with climate change (95).
    In addition, climate change is anticipated to affect the way in 
which animals respond to development. The Porcupine caribou herd, which 
calves in the Arctic National Wildlife Refuge, has the lowest growth 
capacity of the four arctic herds and the least capacity to resist 
natural and human-caused stress (187). Higher insect activity 
associated with climate warming could counteract any benefits of 
reduced surface development by increasing the frequency with which 
caribou encounter infrastructure (187).
    Though limited development offshore has taken place to date, full 
scale industrial development offshore would displace polar bears and 
ringed seals from their habitats, increase mortality, and decrease 
their reproductive success. Predicted climate change is likely to have 
serious effects on polar bears and ringed seals that will accumulate 
with those related to oil development (169);
    Wilderness: Oil development has compromised wilderness values over 
1,000 square miles of the North Slope. The potential for further loss 
is at least as great as what has already occurred as development 
expands into new areas (239). Roads, pads, pipelines, seismic vehicle 
tracks, transmission lines, air, ground and vessel traffic, drilling 
activities, and other industrial activities and infrastructure have 
eroded wilderness values over an area that is far larger than the area 
of direct effects (227);
    Air pollution: More than 70,000 tons of NOx are emitted each year 
by industrial facilities on the North Slope, along with thousands of 
tons of sulfur dioxide, carbon monoxide, volatile organic hydrocarbons, 
and millions of tons of carbon dioxide (66). Even though air quality 
meets national ambient air quality standards, it is not clear that 
those standards are sufficient to protect arctic vegetation (141). Not 
enough information is available to provide a quantitative baseline of 
spatial and temporal trends in air quality over long periods across the 
North Slope, and little research has been done to quantify effects;
    Winter off-road seismic exploration and ice roads: The Committee 
estimates that more than 32,000 miles of seismic trails, receiver 
trails, and camp-move trails were created between 1990 and 2001, an 
annual average of 2,900 miles each year (154). If current trends 
continue, some 30,000 line miles will be surveyed on the North Slope 
over the next decade. These trails produce accumulating visual effects 
and can damage vegetation and cause erosion. Data do not exist to 
determine the period that the damage will persist, but some effects are 
known to have lasted for several decades.(252). Seismic exploration is 
expanding westward into the western arctic and the foothills, where the 
hilly topography increases the likelihood that vehicles will damage 
vegetation (252). The use of ice roads and pads has increased and will 
continue to do so, but little information is available on how long 
effects persist; and
    Animals: The reproductive success of some bird species in the 
oilfields has been reduced to the point where some oil-field 
populations are likely maintained only by immigration from more 
productive ``source'' habitats elsewhere (200). An important 
consequence of this phenomenon is that loss of such ``source'' habitats 
can threaten the viability of a population even though most of the 
habitat occupied by the species in region remains relatively intact. 
The location of important source habitat for birds or other species is 
not well characterized for the North Slope. Thus, the spread of 
industrial development into new areas could result in unexpected 
species declines, even though total habitat loss might be modest (158, 
253).
    With respect to caribou, Although industrial development has not 
resulted in a long term decline in the Central Arctic Herd (the herd 
most affected by current oil development), the Committee concluded that 
by itself is not a sufficient measure of whether adverse effects have 
occurred (185). Female caribou exposed to oilfield activity and 
infrastructure produced fewer calves, and following years when insect 
harassment was high, that effect increased, which may have depressed 
herd size. The spread of industrial activity into other areas that 
caribou use for calving and relief from insects, especially to the east 
where the coastal plain is narrower than elsewhere, would likely result 
in reductions in reproductive success if disturbance is not reduced. 
(15, 254).

Environmental issues related to development on public lands in the West
    The environmental problems associated with onshore oil and gas 
development in Alaska are mirrored on public lands in the Interior 
West. According to the Bureau of Land Management (BLM), there are 
currently over 94,000 producing oil and gas wells on the public lands 
that it manages within the Rocky Mountain West. In Fiscal Year 2001, 
the BLM permitted 4,472 drilling projects on those lands, <SUP>12</SUP> 
a ``strong increase'' over 1999 and 2000 levels. <SUP>13</SUP> Since 
the Administration took office, 7, 158 APDs have been approved and the 
BLM has been fast-tracking land use plans and energy projects to 
achieve its stated goal of increasing domestic production. 
<SUP>14</SUP> The expedited list includes the Powder River Basin in 
Montana and Wyoming, where the agency recently approved the drilling of 
up to 66,000 new coalbed methane wells over the next 10 years. 
<SUP>15</SUP> Also included are public lands in the Farmington, New 
Mexico area, where the agency's ``reasonably foreseeable development 
scenario'' projected the drilling of 9,970 new wells during the next 
twenty years in an area that currently has over 19,000 producing oil 
and gas wells. <SUP>16</SUP>
---------------------------------------------------------------------------
    \12\ BLM, Oil and Gas Activity on Public Lands, p. 5 (March 2002).
    \13\ Id. See also, BLM, Budget Justifications and Annual 
Performance Plan, Fiscal Year 2003, pp. III-116 through III-121.
    \14\ See, e.g., BLM, Land Use Plans and Major Environmental Impact 
Statements--Energy Development Workloads (December 28, 2001).
    \15\ We are among the groups that have filed suit over these 
decisions. However, neither we nor any of the other plaintiff groups 
have asked for any injunctive relief as of this date and BLM has begun 
approving APDs.
    \16\ Alberswerth, D. 2003. Testimony before the Senate Energy and 
Resources Committee, The Wilderness Society, Washington, DC.
---------------------------------------------------------------------------
    Current practices in oil and gas development have had serious and 
widespread impacts across broad expanses of public land. Oil and gas 
fields have become spiderwebbed with pipelines and access roads, and 
pockmarked with well pads. Full-field development has often converted 
pristine wildlands and pastoral rural areas into industrial zones. The 
wild character of the public's lands has been destroyed, recreational 
values severely diminished, long-term degradation of scenic viewsheds, 
and wildlife habitats seriously degraded. Not only the environment, but 
also the cornerstones of the West's economy--outdoor recreation, 
hunting and fishing--have been affected. <SUP>17</SUP>
---------------------------------------------------------------------------
    \17\ Hunters and anglers spend $5.5 billion each year in the Rocky 
Mountains, including $2 billion a year in Colorado. Recreation and 
tourism, much of which is dependent on public lands, brings in $8 
billion annually to Colorado's economy. See, e.g., Morton, Peter A., 
Ph.D., Testimony before the Speaker's Task Force on Affordable Natural 
Gas, U.S. House of Representatives, August 25, 2003, The Wilderness 
Society, DC.
---------------------------------------------------------------------------
    Research shows that roads and drill pads fragment and diminish the 
quality of wildlife habitat for elk, antelope, and sage grouse. A 
recent GIS analysis of an oil and gas filed in Wyoming's Upper Green 
River Valley indicates that 97% of the 166-square-mile study area was 
within one-quarter mile of a road, pipeline, or well pad, providing no 
habitat for the Greater Sage grouse, a potential candidate for the 
federal endangered species list. <SUP>18</SUP> Other research has shown 
that oil and gas development can have a major impact on big game 
animals, including elk. <SUP>19</SUP>
---------------------------------------------------------------------------
    \18\ Weller, C., J. Thomson, P. Morton, and G. Aplet. 2002 
Fragmenting our lands: the ecological footprint from oil and gas 
development. The Wilderness Society, www.wilderness.org/Library/
Documents/FragmentingOur Lands.cfm
    \19\ See, e.g., Powell, J.H., and F.G. Lindzey. 2001. 2000 progress 
report: Habitat use patterns and the effects of human disturbance on 
the Steamboat elk herd. Unpublished report, Wyoming Cooperative Fish 
and Wildlife Research Unit; Van Dyke, F., and W.C. Klein. 1996. 
Response of elk to installation of oil wells. J. Mamm. 77(4):1028-1041; 
Johnson, B., and L. Wollrab. 1987. Response of elk to development of a 
natural gas field in western Wyoming 1979-1987, Wyoming Department of 
Game and Fish Report.
---------------------------------------------------------------------------
    Seismic exploration activities can also have serious environmental 
impacts. Desert soils are susceptible to compaction and destruction 
from the heavy vehicles used for certain types of exploration and can 
take 50-200 years to recover. <SUP>20</SUP> Seismic activities can have 
negative impacts on big game as well as other wildlife species. 
<SUP>21</SUP>
---------------------------------------------------------------------------
    \20\ Belnap, J. 1995. Surface disturbances: Their role in 
accelerating decertification. Environmental Monitoring.
    \21\ See, e.g, Gillin, C. 1989. Response of elk to seismograph 
exploration in the Wyoming Range. M.S. Thesis, University of Wyoming; 
Menkens, G.E., and S.H. Anderson. 1985. The effects of vibroseis on 
white-tailed prairie dog populations on the Laramie Plains of Wyoming. 
Report to the U.S. Bureau of Land Management, Interagency Agreement 
#WY910-IA2-1187.
---------------------------------------------------------------------------
    The environmental consequences of oil and gas development onshore 
and offshore are an important reason why NRDC supports a different 
approach to energy security in this country, one that shifts reliance 
away from fossil fuels and toward more sustainable energy future.
    Thank you for the opportunity to testify.
                                 ______
                                 
    Mr. Rehberg. Let me begin by asking the panel a question. 
Obviously I'm a Congressman from Montana, so I don't have a 
deep knowledge of offshore drilling technology, so I apologize 
for my questions perhaps, but are these rigs cut out and taken 
for salvage, or are they cut out and left there? I guess my 
question would be what do they do, and, if they cut them and 
drop them, do they sustain more life by being in place or 
laying on their side? Certainly they wouldn't sustain as much 
life if they're entirely removed. My question would be for the 
four of you.
    Mr. Kolian. I'll address that.
    They put explosives 15 feet below the mud line, and they 
pop them out of there normally. Eight percent of the 2,000 
platforms removed have been turned into artificial reefs.
    When they topple them over like that, the community of fish 
is much smaller than when it is straight up like that, because 
what happens is you get fish that exist between zero and 30, 
and 30 and 60, and 60 and 90 and all that on one single 
location. When you topple it over like that, you lose all those 
shallow-water species. And I hope that addresses your--
    Mr. Rehberg. Dr. Sammarco.
    Dr. Sammarco. MMS has a number of options that they use in 
their Rigs-to-Reef program. Removal is by and large what is 
done, which is cutting these off below the surface of the 
sediment, floating them up, taking them in on a barge, and 
they're either scrapped or cleaned up, and they are perhaps 
used again.
    The second option is they can take them and topple them 
completely, which then puts them into deep water, which is fine 
for deepwater organisms, but it's not fine for the shallow-
water organisms.
    The third option is they can take them and cut the top off 
at 85 feet, and they leave the platform up to a depth of 85 
feet. The top is taken off, and the top is toppled next to it.
    And then the last option is they leave it in place. If it 
is left in place, they have to maintain--whoever's looking 
after it has to maintain all the navigational aids, the lights, 
the horns, foghorns, and all that sort of thing, so--but by and 
large, over 90 percent of them are brought back to land and 
scrapped either for scrap metal or are cleaned and used again.
    Mr. Rehberg. Mr. Walker and Ms. Speer, before you answer, I 
have not thoroughly studied your biographies. I assume the 
first two gentlemen have a scientific background.
    Mr. Walker. Yes.
    Mr. Rehberg. I don't know what Gulf Productions does. Are 
you science-based?
    Mr. Walker. No, sir. My whole role in this thing here is to 
basically be the eyes underwater for these guys due to how much 
I do dive and have dove and the surroundings that I keep myself 
in as a charter boat captain and--
    Mr. Rehberg. OK. Then from your observances--
    Mr. Walker. My observance of what you're speaking of now, I 
would like to comment also in seismographic, because I do do 
stuff for Federal agencies as well.
    The top of a rig is simple to me; I mean, you should leave 
the platform in place. If you do cut it off, let it extend 85 
feet out the water. The ones I do see like that are solar-
powered, which keeps the foghorns going, keeps the lights 
going, which assists anybody that's sailing in that vicinity. 
But the most important reason, from my point of view, on why 
not to cut the platform below the surface is because the 
community of fish that live up in the top 30 to 40 foot of that 
platform is where I see most of the nesting activity taking 
place, and that's from crustaceans to microorganisms and 
whatnot.
    Mr. Rehberg. Thank you.
    Ms. Speer, first of all, your background, and then if you 
could answer that question.
    Ms. Speer. Yes. I received a master of science from Yale 
University. I am a member of the Board on Environmental Science 
and Toxicology of the National Research Council, which is an 
arm of the National Academy of Sciences. It is my privilege to 
serve on the NRDC committee that examined the impacts of oil 
development on Alaska's North Slope, and I've worked on oil and 
gas issues offshore for 20 years.
    Mr. Rehberg. Thank you. I sense from your testimony you 
would prefer those rigs not have been there in the first place, 
but now that they're there, is there a benefit to having them 
stand versus lay on their side? And I won't ask about the 
removal, just between the standing and the laying on its side.
    Ms. Speer. I--I think our issues go beyond that, and the 
question of whether they're upright or on their sides is not as 
crucial to us as getting them out of the water, regardless of 
where they're standing.
    Mr. Rehberg. The question is, for any one of the four of 
you, I was listening to your testimony, but I didn't hear 
anybody specifically mention endangered species. Are there 
unique and endangered species involved in these platforms? 
We're not in the business of destroying endangered species, so 
can you tell me, are there endangered species involved?
    Mr. Kolian. Yes. The Hawksbill turtle, which was put on the 
endangered species list in 1968, currently resides on the oil 
and gas platforms. They will actually hang on the transoms and 
sleep and rest. All the food requirements that they need, they 
feed on mollusk, they feed on passing jellyfish, a number of 
other organisms that are right on the platform, so that they 
eat, sleep and rest right on the platforms.
    Mr. Rehberg. Dr. Sammarco, are there coral species that are 
unique that are perhaps endangered in some sense that these 
platforms create an environment for, or is that not an issue?
    Dr. Sammarco. Well, the corals--well, first to bounce off 
what Steve said, I have seen turtles on the platforms. I 
haven't seen them to the extent that Steve and Al have, but 
I've certainly seen them there.
    Second, with respect to the corals, the corals in general 
are protected species by Federal law, protected from take and 
from harvest, and also they're protected from trade by 
international treaty, so they are somewhat special. And I think 
there's a gray area here as to when the platforms are taken out 
and when the platforms are decommissioned, whether--where this 
falls with respect to Federal law, I don't know. I think it's 
something that needs to be clarified, because the Stevens-
Magnuson Act and the decommissioning act for MMS seem to be out 
of kilter there, but I can't speak with a great deal of legal 
knowledge on this. Seems to me there was something out of 
kilter.
    With respect to the corals themselves, they are protected. 
We are losing corals on reefs throughout the world at an 
alarming rate not just from bleaching, but all sorts of things, 
coral disease. The keys have been hit very hard. The 
interesting thing about these platforms which we now have, you 
know, 4,000 of in the northern Gulf of Mexico is that they seem 
to be harboring these corals, and the corals don't seem to be 
suffering from the problems that I see on other reefs. They 
don't seem to be suffering from disease or bleaching; probably, 
bleaching, because of the depth. And I do believe and this is 
my personal opinion, that they're acting as a stabilizing force 
for the corals on the flower garden banks, which are also very 
healthy at the moment. I think they're among the healthiest 
reefs in the Northern Hemisphere from what I've seen, which 
probably the corals from here--this is one thing that we're 
examining at present. We believe the flower gardens are seeding 
the platforms, but, in doing that, in creating these I don't 
know how many hundreds or thousands of populations out there in 
the Gulf of Mexico, those populations will also aid to 
stabilize the populations on the flower gardens, because if 
something ever happened to them, they could be reseeded from 
other populations around.
    Mr. Rehberg. Mr. Walker.
    Mr. Walker. Yes, sir. Again, I'll state that I am their 
eyes underwater and am aware of the migrations of many of these 
species. As far as the Hawksbill turtle goes, I do have on film 
one resting, one feeding on a platform, first time ever 
captured. I do have a coral that I have now at home that Dr. 
Sammarco, as knowledgeable as he is about corals, I have one 
for him to sample that he's never, ever had a chance to look 
at.
    There was a situation that just occurred that they were 
thinking about putting the white marlin on the endangered 
species list. I went and gathered some footage in that area as 
well around oil platforms. I do encounter many types of whales, 
sperm whales, pilot whales, whale sharks, and they do also 
frequent the platforms mainly to feed on squid, which I also 
have on film.
    Mr. Rehberg. Ms. Speer.
    Ms. Speer. Yeah. My other responsibilities deal with 
fisheries, and my experience is that if the concern is 
endangered species, there is an awful lot of other things that 
would be far more effective in conserving endangered species 
like turtles and marlin. The most important is long lines; 
controlling long lines and keeping them out of areas where 
marlin frequent would be far more effective in protecting 
marlin--the same goes with turtles--than allowing these reefs 
to remain on the ocean floor.
    Mr. Rehberg. Thank you.
    Mr. Vitter, I understand you have to leave. Mr. Kind has 
been kind enough to yield to you.
    Mr. Vitter. Thank you, Mr. Chairman. I appreciate that. I 
just have a couple questions for Ms. Speer.
    First of all, let me go off my topic a little bit and ask 
you about the meat of your topic, which is ongoing oil and gas 
production. I think you said in your closing an environmentally 
sound oil and gas development is an oxymoron, so you basically 
do not think it exists on the plant now; is that correct?
    Ms. Speer. I'm saying there has been a lot of progress in 
the last 20 years since I started this business, but we still 
have a long way to go.
    Mr. Vitter. So you don't think that environmentally sound 
oil and gas production exists now.
    Ms. Speer. Environmentally sound oil and gas production 
remains a goal that we are all shooting for, and particularly 
gas production. Gas, we recognize, is a very important part of 
the Nation's future, and fortunately most of the areas that are 
off limits to oil and gas production on Federal lands onshore 
and offshore do not contain most of the federally owned oil and 
gas.
    Mr. Vitter. So, again, none of the production, right now, 
is environmentally sound.
    Ms. Speer. Again, it is a goal we remain anxious to reach.
    Mr. Vitter. OK. I take that as a no, nothing's 
environmentally sound.
    Do you support any increased oil and gas production in the 
domestic U.S. Or at our continental shelf?
    Ms. Speer. We have not opposed gas development where 80 
percent of the gas on the Federal outer continental shelf is 
located, and that is in the central and western Gulf of Mexico. 
We also have not opposed development of Alaska's North Slope 
gas reserves, which far, far outweigh the reserves of oil and 
gas in protected areas of the outer continental shelf.
    Mr. Vitter. Do you support that increased activity there?
    Ms. Speer. We have not opposed that activity.
    Mr. Vitter. OK. My question is do you support that 
increased activity there?
    Ms. Speer. There were environmental questions that need to 
be resolved before we could respond to that question--
    Mr. Vitter. So the answer is no.
    Ms. Speer. Construction of pipeline stuff is quite a 
significant thing that we would need to see evaluated before we 
took a position.
    Mr. Vitter. So there is nowhere where you support increased 
activity.
    Mr. Rehberg. Is that what she said?
    Mr. Vitter. Is that correct?
    Mr. Rehberg. That's not what she said. Perhaps just give 
her a question, allow her to respond, and then move on.
    Mr. Vitter. OK. Can you name a spot in the domestic U.S. Or 
outer continental shelf where you support increased activity?
    Ms. Speer. I can name a sector where we support increased 
activity, and that is drilling the enormous quantities of 
energy that lie in inefficient electrical appliances, in 
refrigerators, in transformers, in the whole--in cars, the 
whole range of energy-consuming appliances and other 
conveyances that we could make--we could improve the efficiency 
of at far less environmental cost and provide energy that far 
exceeds the amount of oil and gas in protected Federal lands.
    Mr. Vitter. OK. And so that conservation is the increased 
production that you support.
    OK. Getting to the meat of my bill, I take it you're just 
opposed to allowing these platforms to stay in place after 
production increases; is that correct?
    Ms. Speer. Again, I think there are a lot of issues that 
remain unresolved about leaving these platforms in place, 
including, you know, the issues I articulated in my testimony.
    Mr. Vitter. So, as of now you oppose any legal changes that 
would allow them to stay in place.
    Ms. Speer. We have not taken a position one way or another. 
I think the question remains there are a lot of issues out 
there that need to be looked at, the questions of health, 
contamination, liability, whether those reefs really do serve a 
purpose in terms of concentrating marine life or benefiting the 
marine ecosystem. All of these, I think, is open to question.
    Mr. Vitter. You cited this California study talking about 
local versus regional impacts. I take it, to sort of translate 
that, that that study is based--that quote is basically saying, 
well, maybe these things just attract marine life, they don't 
create and help multiply marine life. Is that what that quote 
gets to? Is that the issue it gets to?
    Ms. Speer. I think the issue that it gets to is from an 
ecologic standpoint, the question is not so much whether there 
is increased life at the platform itself, but whether that 
benefits the ecosystem as a whole. And what I think they're 
saying, and, again, I would direct this question to the 
scientists who conducted this study because I don't want to 
speak for them, but my understanding of what they're saying is 
most studies out there look simply at the local effects and not 
at the bigger ecoeffects that are out there. And I know some 
people have expressed concern about the attraction problem with 
respect to things like rockfish, which in the West are in 
serious trouble, and you are simply attracting them to the rigs 
to allow them to be fished. Is that really a helpful thing?
    Mr. Vitter. On this attraction versus production question, 
we've had testimony today from Mr. Kolian, but there is a lot 
of evidence out there that it is not primarily about 
attraction. It is primarily about actually producing more fish 
stock and coral life. As a layperson, that clearly seems to be 
the overwhelming weight of the evidence to me, from everything 
I've read. Do you disagree with that?
    Ms. Speer. I'm merely pointing out that they are--with all 
due respect to the other witnesses, that there are other points 
of view within the scientific community about that point.
    Mr. Vitter. And if, in fact, these things are helping 
produce more marine life versus simply attracting it from 
elsewhere, are you also saying there is a negative side to 
that, because I'd like to understand what that could be.
    Ms. Speer. Well, if the goal is to increase diversity and 
productivity of the marine environment, there are far more 
effective ways of doing that. Creating large-scale marine 
protected areas not just at one little point, but much more 
broadly is one. Creating areas where you protect juveniles from 
fishing is another. There is just--if the concern is preserving 
marine biodiversity, this is not the most effective way to go 
about it.
    Mr. Vitter. But, Ms. Speer, we rarely stop doing every 
productive thing on the list because there is something more 
productive on the list, too; in other words, if it's good for 
marine life, why not do it seems to me saying there's a more 
productive thing to do is not a reason not to do this, if it, 
in fact, is productive.
    Ms. Speer. And I guess there is still--my understanding is 
there are still different scientific views about, number one, 
whether it's more productive; number two, whether it actually 
helps the marine environment; number three, whether there are 
issues of contamination. Number four, is where the liability 
will rest at the end of the game, and who pays if somebody gets 
hurt, and a whole host of other issues that I think deserve 
some more examination before we rush forward here.
    Mr. Vitter. OK. Thank you, and, again, thank you for your 
courtesy, Mr. Chairman.
    Mr. Rehberg. Thank you.
    Mr. Kind.
    Mr. Kind. Thank you.
    I want to thank the panelists for your testimony today. 
It's very enlightening.
    Let me start with a couple of questions to Mr. Kolian and 
Dr. <plus-minus>Sammarco. In regard to the bottom-line cost to 
the industry, in regard to the disposition of these oil rigs, 
given the various options that they're facing, what's most 
expensive, what's least expensive in regard to the disposition 
of these oil rigs?
    Go ahead.
    Dr. Sammarco. This is to the best of my understanding after 
interacting with MMS closely for the last few years. To the 
best of my knowledge, when the platforms are put in, the oil 
companies are required to place either a bond or open an escrow 
account which will cover the decommissioning of that when it is 
ready for such. The lowest amount that I've heard is $2.5 
million, and that will be there whether the company is there or 
not. If the company goes bankrupt or whatever, the company is 
still there to pull that out.
    Now, it is my understanding if there is an agreement made 
between the State government and Federal Government to donate 
the platform to the Rigs-to-Reef program, that they receive 50 
percent of that bond back; that the other 50 percent is used, I 
presume, to move the rig or to help convert it. So this is a--
this is an area where there are funds sitting already in 
regards to decommissioning of platforms.
    Mr. Kind. Let me ask it in a more simplified manner. I'm 
assuming that the cost of decommissioning the rig and pulling 
it out and disposing of it and pulling it out of the water is 
going to be much more competitive than if they go to some of 
the other options of keeping it in in some reef form; is that 
correct?
    Dr. Sammarco. Yeah, 2-1/2 half million will probably be a 
minimum. Sometimes these things can be very, very expensive to 
pull out, I guess on the order of tens of millions or hundreds 
of millions.
    The maintenance fees per annum to keep it going, to keep 
the navigational aids, the figures that I've had from Texaco 
have been about 100,000 per year.
    Now, in terms of other maintenance, compressors, painting, 
that sort of thing, I'm not certain.
    Mr. Kind. And I'm assuming that they cut the first 85 feet 
off and let that drop into the bottom, that would be even less 
expensive.
    Dr. Sammarco. Yes. There is no maintenance costs there.
    Mr. Kind. Let me just invite the panel, if you've got any 
information or study in regards to mercury contamination in the 
Gulf of Mexico, forward them to us so I'll have a chance to 
look that. And I understand there are some studies that 
contradict that as well, but whatever you might have available, 
I'd encourage that type of feedback.
    Ms. Speer, let me turn to you and quickly ask you if you 
had to give a grade to the oil and gas industry in regard to 
their ability to modernize with new technology and become more 
environmentally sensitive to the work that they're doing, where 
would you put that grade right now?
    Ms. Speer. Well, it really varies, Mr. Kind. I think it's 
impossible to give the grade overall, because the practices 
really differ substantially.
    Mr. Kind. Fair enough. Fair enough.
    Let me ask you, getting back to the Rigs-to-Reef program, 
perhaps I'm skewed in my viewpoint in seeing the success that's 
occurred with decommissioned ships and even boats being placed 
next to currently existing reefs and the value that that 
brings, and I think there's been a lot of success in doing 
that. How is the Rigs-to-Reef program different from that as 
far as the creation of reefs or complementing what exists in 
the ecosystem already?
    Ms. Speer. I am not familiar with putting--you know, 
sinking other vessels, et cetera, so I can't speak to those 
issues directly, but I do think that it's incumbent upon us to 
be responsible in approaching this question, and particularly 
given the concerns that have been raised about mercury, but, in 
addition to that, the question of whether we want to use the 
ocean floor as a dumping ground is really an important one to 
look at, because if we start doing this, and, you know, we've 
put subway cars off of where I live, we're putting ships down, 
it does become a question of where, in fact, are we going with 
this.
    Mr. Kind. And your major concern, you don't feel there's 
been enough scientific study in the application of this idea 
and whether it makes sense for the ecosystem?
    Ms. Speer. Yes.
    Mr. Kind. Well, I would be remiss if I didn't also ask you, 
in regards to the North Slope, a report that you and so many 
others put a lot of hard work in. I mean, this report that you 
cited from the National Research Council on the effects of 
North Slope drilling, and I'm serving on the Energy Conference 
Committee right now, and obviously one of the most contentious 
issues is whether we allow drilling in the Arctic National 
Wildlife Refuge. The work that you put in in regard to North 
Slope operation, what is your opinion with regard to drilling 
in the Arctic National Wildlife Refuge that is being proposed 
in this Energy Conference?
    Ms. Speer. I think--and I'm speaking as NRDC, not the 
committee--but I think the report unquestionably shows that 
there are very profound and possibly permanent impacts on the 
environment of the North Slope that have developed from oil and 
gas development, and that moving into the oil and gas in the 
National Wildlife Refuge would increase those effects in an 
unacceptable way. But it is not just the Arctic refuge we're 
concerned about, of course. It's offshore in the Arctic, and 
it's also the National Petroleum Reserve which also harbors 
tremendous wildlife resources. So we believe this report lends 
further weight to the contention that we should not go there, 
and we don't need to go there, fortunately, because we have at 
our disposal a lot of other alternatives that are far more 
environmentally sound.
    Mr. Kind. There have been a lot of arguments made that 
we're only talking about a footstep, maybe a postage stamp 
effect in this vast wilderness area. What's your response to 
that?
    Ms. Speer. A couple. First of all, the idea that this 2,000 
acres would be developed conveys the idea that all of it would 
be in a little 2,000-acre chunk, and the reality is, according 
to the U S. Geologic Survey, the oil is spread out among many 
different pools so that 2,000 acres would be spread out 
throughout the National Wildlife Refuge's coastal plain to 
develop the oil. In addition, that doesn't include all the 
infrastructure that's required to support the development. And 
finally, the impacts--we found in our report, the NRDC report, 
that the impacts of oil development extend far beyond the 
actual footprint of the 2,000 acres. For example, the current 
North Slope development covers only 17,000 acres, but it's 
spread over an area larger than the size of Rhode Island. 
That's the kind of problem that we would face if we go into the 
refuge, and we strongly oppose that.
    Mr. Kind. OK. Thank you.
    Thank you all again.
    Thank you, Mr. Chairman.
    Mr. Rehberg. Thank you, Mr. Kind.
    Mr. Walker, you had commented that I would like some 
additional opportunity on the seismic issue. Did you want to 
respond to that?
    Mr. Walker. Yes, sir. Again, I pride myself, along with my 
company, for bringing conclusions to either false theories or 
just plain theories, as it may be. I have done work with 
Federal agencies on this matter. I do assist in tagging the 
whales. I do assist in gathering feces from the whales. They 
normally let go of their feces when they sound.
    The comment I'd like to make to Ms. Lisa Speer is whether 
we tag these whales, ironically they're following the 
seismograph boats along with the tuna and everything. The 
charter fisherman--when I see a seismograph boat, I go to it, 
and I fish it. The seismograph is comparable to the way the 
whale feeds already, by sonar, and it exposes prey that it 
normally wouldn't pick up. That's one theory.
    Again, my job is to go out while they're seismographing, 
jump in the water with a camera, and show that the whales are 
living in perfect harmony with these so-called enemy of them. 
So I would go as far to say that there is not 100 percent proof 
seismographing is deterring or injuring any whale species.
    Mr. Rehberg. Yes?
    Ms. Speer. There have been numerous studies, both in the 
Gulf of Mexico and on the North Slope of Alaska, that have 
shown that whales react to seismic vessels. This is the first 
time I've heard any dispute of that question, and, in fact, I'd 
like to submit for the record--I don't have it with me--the 
biological opinion of the National Marine Fisheries Service on 
the consultation and lease sale 180 in the Gulf of Mexico, 
which the biological opinion addressed this issue on seismic 
effects on whales and raised very significant concerns not only 
for the whales, but on their chief source of food, which is 
squid, and squid react very violently to seismic exploration, 
according to the biop.
    Ms. Speer. In addition, there have been many, many years of 
work done off of Alaska's North Slope. It has shown that 
seismic activities show very significant diverse narrow effects 
on those bowheads, and I think that those issues are 
increasingly important as we move forward in seismic 
exploration.
    Mr. Rehberg. Thank you. For the panel, what other countries 
are farther ahead of this concept of leaving the rigs in place, 
and to what extent do they practice?
    Mr. Kolian. Yes. In Norway they're developing a large 
comprehensive mariculture system that's utilizing their oil and 
gas platforms. Japan has a--the most advanced fisheries 
enhancement program in the world. They develop offshore oil and 
gas platforms specifically to raise fish. They utilize 
artificial reefs which look very similar to oil and gas 
platforms, except that ours are--will last 300 years. Theirs 
will last 30 years. Ours are much bigger, much stronger.
    They will stock fish, feed fish, and grow them to maturity. 
They'll play music to the fish before they feed them, in which 
they'll respond and come up to the feed, and they have a very 
comprehensive mariculture program, utilizing offshore oil and 
gas platforms and artificial reefs.
    Mr. Rehberg. One other question, and it's always bugged me. 
We have a tendency from an environmental standpoint to dump on 
the company because of arsenic when there's more arsenic 
naturally occurring in the environment than a mine could ever 
produce. And I can't speak to the mercury issue because I don't 
know if mercury naturally occurs in the environment. But does 
oil seepage naturally occur in the ocean environment? We don't 
have too many oceans in Montana, so I'm not familiar with what 
naturally occurs out there. So, one, is there a naturally 
occurring oil seepage; and, two, could the mercury 
concentration be some naturally occurring mercury?
    Mr. Kolian. Well, I've done some research on the mercury 
issue. There is oil seepage all over the Gulf of Mexico. I'm 
not sure if the mercury's coming from that oil seepage. The one 
thing from mercury methylation, it takes time. It requires a 
certain PH level. It requires that, from the studies that I've 
read, below 7 pH, and the ocean is 8.0 pH. And also what occurs 
is the bacteria will be--you know, muck around in the mud which 
has mercury in it, and that has to transfer through all the 
trophic level to get to fish.
    Now, I understand there are some worms which may hide in 
the mud, and then the fish come down and eat the mud, but--or 
eat the worms, but the anoxic conditions around these oil and 
gas platforms, natural, it is mucky. These fish aren't going 
down eating these worms. They may in sandy areas, but offshore 
Louisiana, it is naturally hypoxic. I mean, not naturally, it's 
occurring from agricultural run-off, but also, if it's--if it's 
going from the bacteria to the plankton to the small carnivores 
to the large fish, that's going to take several days to weeks. 
And there's a 20- to 30-centimeter-per-second current in the 
Gulf of Mexico, so if it's--if there's mud around the platform, 
and it's going through a trophic system, that's going to happen 
miles--20, 30 miles away, so it will be dispersed. And it may 
be possible for the worms to collect mercury, but these fish 
are not going down and eating these worms because it's anoxic.
    Mr. Rehberg. Thank you.
    Dr. Sammarco, did you have a comment?
    Dr. Sammarco. Just to confirm that there is natural oil and 
gas seepage in the Gulf of Mexico. There's not too much 
question about that, to varying degrees, and, in fact, if I 
remember correctly, it's because the Gulf of Mexico has a 
pretty good track record with respect to spills. I think that 
the latest data--and again you'd have to confirm this with 
MMS--I think the latest data shows that natural seepage is 
greater than any spills they have had in the last decade.
    Mr. Rehberg. Mr. Kind, do you have any additional 
questions?
    Mr. Kind. No.
    Mr. Rehberg. All right. I'd like to thank you all for your 
testimony. It's been enlightening, and I appreciate your taking 
time to be with us today.
    We'll adjourn the first panel and invite the second panel 
up, please.
    Dr. Sammarco. Thank you.
    Mr. Rehberg. As is customary in the Committee, I will 
please ask you to stand, raise your right hand and repeat after 
me.
    [Witnesses sworn.]
    Mr. Rehberg. Thank you very much. I'll waive introduction.
    I would like to mention to the audience that panel number 
three is Hank Kulesza, with K&M Technology; Dr. Milton Love, 
Marine Science Institute; and John Amos, Skytruth.
    And I apologize if I'm butchering your name, Hank. Why 
don't you begin.

           STATEMENT OF HANK KULESZA, K&M TECHNOLOGY

    Mr. Kulesza. You did a pretty good job on it. Most people 
don't get that close. Thank you.
    Mr. Chairman, members of the Committee and distinguished 
guests, my name is Hank Kulesza. I'm the chief operating 
officer of K&M Technology based in Houston, Texas. Thank you 
for allowing me the opportunity to address your Committee this 
morning.
    We are a drilling engineering firm that has been 
specializing in extended-reach drilling technology for the past 
15 years. First I'd like to introduce you to this exciting 
technology which has helped minimize drilling's impact on the 
environment while still allowing us to develop oil and gas 
reserves in sensitive areas of our Nation and around the world.
    In this example we are using an offshore platform 
environment which has been set to develop reserves beneath and 
around the platform. Directional drilling technology is 
generally used to deviate the wells into key locations of the 
producing formation, which is illustrated on the slide by the 
various well paths. This technology has proven very effective 
in exploring our Nation's petroleum reserves.
    Extended-reach drilling technology has taken directional 
drilling to its extreme. The wells are deviated very near the 
surface, the sea floor, to very high angles of inclination. 
This high angle is maintained, and the well is drilled onward 
to distant targets, often several miles away from the platform, 
and that's illustrated as well and noted as an extended-reach 
well on the slide.
    Although many technical challenges exist when attempting 
wells of this nature, many of these challenges have already 
been met and overcome. Wells have already been drilled to 
reserves as far away as 35,000 feet, or 6-1/2 miles, from the 
drill center.
    The next slide concerns several of the technologies which 
have enabled the industry to recover reserves once thought 
unattainable. The two developments which had major 
environmental impact have been the development of oil-based 
drilling fluids and stronger, more compact drilling units. The 
gravitational elements and friction factors extended-reach 
drilling produces necessitated the development of better 
drilling fluids. Oil-based drilling fluids better lubricate the 
well bore and better reduce the torque and drag in the well. 
However, conventional oil-based drilling fluids could not be 
discharged. The development of environmentally friendly oil-
based drilling fluids have allowed extended-reach drilling to 
be used in areas where it was previously prohibited.
    Today's drilling rigs are also becoming more compact and 
more powerful. They can produce more power, handle more fluids 
and equipment, and occupy a much smaller footprint, which 
translates into less environmental disruption. The new--this 
new rig technology enables the operator to drill out even 
further than it had in the past.
    The impact of extended-reach drilling and its enabling 
technology is significant. This map of Long Beach Harbor in 
California depicts four drilling islands which were constructed 
around 1970. Each island has approximately 100 wells 
directionally drilled into the producing formations. Using 
today's proven extended-reach technology, the entire reserve 
under Long Beach Harbor could be developed from one onshore 
drill site.
    There may be no better illustration on ERD's positive 
environmental impact than this slide. Extended-reach technology 
is now utilized worldwide to minimize the cost and 
environmental impact of developing oil and gas reserves. The 
technology allows us to reach previously unrecoverable reserves 
in environmentally sensitive areas. We can now drill offshore, 
back to shore. We can drill to offshore locations from land. We 
are doing so in Alaska, California, the United Kingdom, 
Australia, Russia and New Zealand. We are drilling under ship 
channels in the Gulf of Mexico, and we're drilling under lakes, 
rivers, reefs, and other restricted areas.
    The above pictures are existing ERD applications. The upper 
left picture is an onshore rig which is drilling to an offshore 
reserve under a turtle reserve in western Australia. The upper 
right picture is of the witch farm project off the coast of 
southern England in Poole Harbor. It was initially determined 
that a drill island would need to be constructed to recover the 
reserve located in the middle of Poole Harbor, and that would 
have been right out there. And you can imagine that 
constructing a drilling location in the middle of a harbor was 
not a very palatable issue for most people. Using ERD 
technology, an onshore drill site was developed to reach the 
reserve approximately 30,000 feet away.
    The lower left picture is a development of the upper North 
Slope of Alaska. This is a land-based drill site which is 
drilling offshore under the ice floe.
    The lower right picture is off the coast of California.
    By using ERD technology, we are able to capture reserves 
without having to place another platform.
    There is a consistent theme in these examples. If extended-
reach technology was not used, all of the above examples would 
require an additional drilling facility in order to develop the 
available reserves. These facilities can cost upwards of $100 
million or more in an offshore environment.
    This slide is an example of extended-reach technology's 
positive environmental impact in the Gulf of Mexico. This grid 
represents typical 3-by-3-mile lease boundaries in the Gulf.
    In 1985--excuse me, using 1985 drilling technology, the 
maximum typical reach for a well would have been approximately 
1-1/2 miles from the platform, and it would have taken 49 drill 
centers to develop the 7-by-7 lease grid.
    I think you're ahead of us. Can you move back one?
    OK. That's the 49 drill centers.
    By 1995, the drilling radius had been increased to 4 miles 
using ERD technology. The improvement in our ability to drill 
highly deviated wells reduced the number of drill centers to 
develop this grid down to nine. Today our technology and 
equipment capabilities allow us to drill out to distances as 
far as 6-1/2 miles, or roughly 35,000 feet, reducing the number 
of drill centers to develop this grid to just four.
    Finally, we continue to look for ways to stretch our 
capabilities in extended-reach drilling. We believe that it's 
possible to reach out even further, probably beyond the 10-mile 
limit. In order for this to happen, new technological 
breakthroughs will be required. The proposed construction of 
the Complex Well Test Center located at the Rocky Mountain 
Oilfield Test Center in Casper, Wyoming, which is outlined in 
the draft energy bill, will be a significant step toward making 
this a reality. If this becomes a reality, we could reduce the 
number of facilities in this example to just slightly more than 
one.
    Finally, to provide you an example more familiar, and to 
give you a better feel for the kinds of distances we're talking 
about, we have drawn the same circles around the map of 
Washington, using the White House as the center.
    In 1985--1985's technology would get you out to about 
Georgetown. 1995 technology would get you to the middle of 
Arlington Cemetery. Today's technology would get you out to the 
Mazza Galleria area. And tomorrow's developments could take us 
out to Landover, Maryland, or even further.
    Mr. Kulesza. Thank you for your time and your 
consideration. I hope this presentation was informative.
    [The prepared statement of Mr. Kulesza follows:]

          Statement of Hank Kulesza, Chief Operating Officer, 
                          K&M Technology Group

    Madam Chairman, Congressmen and distinguished guests: My name is 
Hank Kulesza, Chief Operating Officer of K&M Technology Group based in 
Houston, Texas.
    Thank you for allowing me the opportunity to address your committee 
this morning. We are a drilling engineering firm that has been 
specializing in extended reach drilling technology for the past 15 
years.
    First, I would like to introduce you to this exciting technology 
which has helped minimize drilling's impact on the environment while 
still allowing us to develop oil and gas reserves in sensitive areas of 
our nation and around the world.
    In this example we will use an offshore platform environment which 
has been set to develop reserves beneath and around the platform. 
Directional drilling technology is generally used to deviate the wells 
into key locations of the producing formation. This technology has 
proven very effective in exploring our nation's petroleum reserves.
    Extended reach drilling technology takes directional drilling to 
its extreme. The wells are deviated, very near the surface (sea floor) 
to very high angles of inclination. This high angle is maintained and 
the well is drilled onwards to distant targets, often several miles 
away from the platform.
    Although many technical challenges exist when attempting wells of 
this nature, many of these challenges have already been met and 
overcome. Wells have already been drilled to reserves as far away as 
35,000 ft, or over 6+ miles, from the drill center.
    The technologies that have enabled us to drill to these distances, 
thus far, have mainly focused on overcoming drag forces that prevent 
pipe from sliding into these wells and rotating friction forces that 
increase the amount of torque required to rotate the pipe for the 
drilling phase.
    Casing flotation was one of the first innovations used to allow 
protective casing to be run and cemented in these wells. Our company 
led the development of this technology back in 1989.
    The next challenges to overcome were the limitations of the 
connections on the pipe being used to drill and case these wells. The 
industry developed connections that were many times stronger than any 
that had been used before.
    Conventional directional drilling technology quickly met its limits 
in extended reach drilling. New systems that rotated continuously (a 
key to being able to drill these wells) and were adjustable from the 
surface while drilling were the next major development.
    The gravitational elements and friction factors extended reach 
drilling produces necessitated the development of better drilling 
fluids.
    Oil based drilling fluids better lubricate the wellbore and 
therefore reduce the torque and drag in the well. However, conventional 
oil based fluids could not be discharged overboard. The development of 
environmentally friendly oil based fluids have allowed extended reach 
drilling to be used in areas where it was previously prohibited.
    Our drilling rigs are also becoming more compact and more powerful. 
They can produce more power, handle more fluids and equipment and 
occupy a much smaller footprint than the previous generation of 
drilling units. This new rig technology enables the operator to drill 
out even further.
    The impact of extended reach drilling and its enabling technologies 
is significant.
    This map of Long Beach Harbor in California depicts the 4 drilling 
islands constructed around 1970. Each island has approximately 100 
wells directionally drilled into the producing formations.

[GRAPHIC] [TIFF OMITTED] T9399.003


    Using today's proven extended reach drilling technology, the entire 
reserves under Long Beach Harbor could be developed from the THUMS Pier 
J drill site.
    There may be no better illustration on ERD's positive environmental 
impact than this slide.
    Extended Reach Technology is now utilized worldwide to minimize the 
cost and environmental impact of developing oil and gas reserves.
    The technology allows us to:
    <bullet> Reach previously unrecoverable reserves in 
environmentally sensitive areas;
    <bullet> Drill from offshore back to shore;
    <bullet> Drilling to offshore locations from land in Alaska, 
California, U.K., Australia, Russia and New Zealand;
    <bullet> Drilling under shipping channels in the Gulf of Mexico; 
and
    <bullet> Drilling under lakes, rivers, reefs and other restricted 
areas.
    <bullet> All of these instances would have required an additional 
drilling facility in order to be developed, or the reserves would have 
simply been unrecoverable.
    These facilities can cost upwards of $100 million, or more, in the 
offshore environment.
    The slide is an example of extended reach technologies overwhelming 
positive environmental impact in the Gulf of Mexico.

[GRAPHIC] [TIFF OMITTED] T9399.004


    This grid represents the typical 3 x 3 mile lease boundaries in the 
Gulf of Mexico.
    Using 1985 drilling technology, the maximum typical reach for a 
well would have been approximately 1.5 miles from the platform and it 
would have taken 49 drill centers to develop this 7 x 7 lease grid
    By 1995, the drilling radius had been increased to 4 miles using 
ERD technology. The improvement in our ability to drill highly deviated 
wells reduced the number of drill centers to develop this grid down to 
9
    Today, our technology and equipment capabilities allow us to drill 
out to distances as far as 6.6 miles, or roughly 35,000 ft, reducing 
the number of drill centers to develop this grid to just 4.
    Finally, we continue to look for ways to stretch our capabilities 
in extended reach drilling. We believe that it is possible to reach out 
even further, probably beyond the 10 mile limit. In order for this to 
happen, new technological breakthroughs will be required. The proposed 
construction of the Complex Well Test Center located at RMOTC, in 
Casper, Wyoming, which is outlined in the draft Energy Bill will be a 
significant step towards making this a reality. If this becomes a 
reality we could reduce the required number of facilities, in this 
example, to just slightly more than 1.
    Finally, to provide you an example more familiar and to give you a 
better feel for the kinds of distances that we're talking about, we 
have drawn these same circles on a map of Washington using the White 
House as the center.

[GRAPHIC] [TIFF OMITTED] T9399.005


    <bullet> 1985 Technology Gets you out to just about Georgetown.
    <bullet> 1995 Technology gets you into the middle of Arlington 
Cemetery.
    <bullet> Today's technology would get you out to the Mazza 
Galleria.
    <bullet> Tomorrow's developments could take us out to Landover, 
Maryland, or even further.
    Thank you for your time and consideration.
                                 ______
                                 
    Mr. Neugebauer. [Presiding.] Thank you for your testimony.
    The next witness is Dr. Milton Love with the Marine Science 
Institute.

                   STATEMENT OF MILTON LOVE, 
                 MARINE SCIENCE INSTITUTE, UCSB

    Mr. Love. Thank you, Mr. Chairman. I have been conducting 
research off of California on fishes that live around oil 
platforms and natural reefs for about 6 years. My funding comes 
from the Biological Resources Division of USGS, from Minerals 
Management Service, and from the California Artificial Reef 
Enhancement Program. The latter organization is funded 
completely by the oil industry. So I have both Federal funding 
and industry funding, and I must say at the outset that I am 
officially neutral on rigs to reefs issues. I give the same 
facts to any group, and then people filter them through their 
world view and probably ignore what I say half the time.
    Basically, what I found is that all platforms are unique in 
terms of what fishes live around them. However, having said 
that, I am about to generalize, and the generalization is that 
platforms seem, at least in my area--and I have to be very 
specific, in California--seem to act more or less like natural 
reefs do. They produce some fishes, I think that is fairly 
clear, particularly rockfishes, and they attract some fishes 
just like natural reefs do. Ironically, it seems that some 
platforms are actually better as fish habitat than many natural 
reefs, and that comes in two areas. One, platforms, many of 
them, tend to be better nursery grounds for rockfish than--and 
rockfishes dominate the system out there. They are very 
important economically for us and for the system. Platforms are 
large, and young fishes looking for places to settle out 
encounter platforms more easily than they encounter reefs, so 
you tend to find huge densities in some years of young fish.
    And the other thing is that, unlike the Gulf of Mexico, we 
have very little fishing around many of our platforms. They act 
as de facto marine reserves. So you tend to find very high 
densities of overfished species around some of our platforms 
because they are not fished very much.
    So what I would like to do is show you a videotape. I think 
it is more expressive than anything else I could say, and this 
sort of summarizes some of what we see.
    As soon as we can get it to move. You want to try rebooting 
that? OK. You want to go to the next witness and come back, or 
how do you do this kind of stuff?
    Mr. Neugebauer. If you want to wait, we will come back to 
you and let you finish with that presentation.
    Mr. Love. That will be fine.
    Mr. Neugebauer. Thank you, Dr. Love.
    [The prepared statement of Mr. Love follows:]

          Statement of Milton Love, Marine Science Institute, 
                University of California, Santa Barbara

    The following is a summary of the research I and my associates have 
conducted on the relationships between oil and gas platforms and fishes 
off southern California. This research was funded by the Biological 
Resources Division of the United States Geological Survey, the United 
States Minerals Management Service, and the California Artificial Reef 
Enhancement Program.
    The full report summarizing our work is entitled The Ecological 
Role of Oil and Gas Production Platforms and Natural Outcrops on Fishes 
in Southern and Central California: A synthesis of Information, and is 
available in PDF format at our website www.id.ucsb.edu/lovelab.
Information Needed
    Production of oil and gas from offshore platforms has been a 
continual activity along the California coast since 1958. There are 26 
oil and gas platforms off California, 23 in federal waters (greater 
than 3 miles from shore) and 3 in state waters. The platforms are 
located between 1.2 to 10.5 miles from shore and at depths ranging from 
11 to 363 m (35-1,198 ft.). Crossbeams and diagonal beams occur about 
every 30 m (100 ft.), from near the surface to the sea floor. The beams 
extend both around the perimeter of the jacket and reach inside and 
across the platform. The beams and vertical pilings (forming the 
jacket) and the conductors on all platforms are very heavily encrusted 
with invertebrates and provide important habitat for fishes. The sea 
floor surrounding a platform is littered with mussel shells. This 
``shell mound'' (also called ``mussel mound'' or ``shell hash'') is 
created when living mussels, and other invertebrates, are dislodged and 
fall to the sea floor during platform cleaning or storms.
    Once an industrial decision is made to cease oil and gas 
production, managers must decide what to do with the structure, a 
process known as decommissioning. Platform decommissioning can take a 
number of forms, from leaving much, or all, of the structure in place 
to complete removal. Along with the platform operator, many federal and 
state agencies are involved in the decommissioning process. All oil and 
gas platforms have finite economic lives and by the beginning of the 
twenty-first century, seven platforms in southern California had been 
decommissioned and a number of others appeared to be nearing the end of 
their economic lives.
    Management decisions regarding the decommissioning of an oil and 
gas platform are based on both biological and socioeconomic 
information. This study addressed the need for resource information and 
better understanding of how offshore oil/gas platforms contributed to 
the fish populations and fishery productivity in the Santa Maria Basin 
and Santa Barbara Channel. Prior to our studies, there was almost no 
biological information on Pacific Coast platform fish assemblages. This 
necessary research involved broad scale sampling at numerous oil/gas 
platforms and natural reefs. Research objectives included 1) 
characterizing the fish assemblages around platforms and natural reefs, 
2) examining how oceanography affects patterns of recruitment and 
community structure of reef fishes, and 3) describing the spatial and 
temporal patterns of fish diversity, abundance and size distribution 
among habitat types (e.g., platforms and natural outcrops).
Research Summary
    Between 1995 and 2001, we studied oil and gas platforms sited over 
a wide range of bottom depths, ranging between 29 and 224 m (95 and 739 
ft.) and sited from north of Point Arguello, central California to off 
Long Beach, southern California. However, most of the platform research 
occurred in the Santa Barbara Channel and Santa Maria Basin. The Santa 
Barbara Channel and Santa Maria Basin are situated in a dynamic marine 
transition zone between the regional flow patterns of central and 
southern California. The Santa Barbara Channel is about 100 km long by 
about 50 km wide (60 x 20 miles) and is bordered on the south by the 
Northern Channel Islands (San Miguel, Santa Rosa, Santa Cruz, and 
Anacapa). This area is bathed in a complex hydrographic system of 
currents and water masses. Generally, cool coastal waters from the 
California Current enter the Santa Barbara Channel through its west 
entrance at Point Conception. Warm waters from the Southern California 
Bight flow in the opposite direction into the channel through its 
eastern entrance. Surface waters are substantially warmer in the Bight 
than north of Point Conception due to less wind-induced vertical 
mixing, the solar heating of surface waters, and currents of 
subtropical waters entering from the south. The convergence of 
different water masses in the Santa Barbara Channel results in 
relatively large scale differences in physical parameters (e.g., 
temperature, salinity, oxygen, and nutrient concentrations) and biotic 
assemblages (e.g., flora and fauna).
    Scuba surveys were conducted at shallow depths and submersible 
surveys, using the research submarine Delta, at greater depths. We also 
surveyed shallow-water and deeper-water rock outcrops, many in the 
vicinity of platforms. Nine nearshore, shallow-water rock outcrops, 
seven on the mainland and two at Anacapa Island, were monitored 
annually from 1995 to 2000. These natural outcrops are geographically 
distributed across the Santa Barbara Channel providing opportunities 
for spatial comparisons. In addition, we surveyed over 80 deeper-water 
outcrops, in waters between 30 and 360 m (100 and 1,180 ft.) deep, 
located throughout the Southern California Bight and off Points 
Conception and Arguello. These sites included a wide range of such 
habitats as banks, ridges, and carbonate reefs, ranging in size from a 
few kilometers in length to less than a hectare in area. On these 
features, we focused on hard bottom macrohabitats, including kelp beds, 
boulder and cobble fields, and bedrock outcrops. Most of these deeper-
water sites were visited once, a few were surveyed during as many as 
four years and one outcrop, North Reef, near Platform Hidalgo, was 
sampled annually.
    Most of our oil and gas platform surveys were conducted at nine 
structures (Platforms Irene, Hidalgo, Harvest, Hermosa, Holly, Gilda, 
Grace, Gina, and Gail) located in the Santa Barbara Channel and Santa 
Maria Basin. Between 1995 and 2000, we conducted annual surveys on the 
shallow portions of these nine platforms. The shallowest of the nine 
platforms, Gina, was surveyed from surface to bottom depths using scuba 
techniques. Deep-water surveys conducted between 1995 and 2001, using 
the research submersible, Delta, studied the same platforms excluding 
the bottom of Gilda and all of Gina. In 1998, one submersible survey 
was conducted around Platform Edith, located off Long Beach. In 2000 
partial submersible surveys were completed around Platforms C, B, A, 
Hillhouse, Henry, Houchin, Hogan, and Habitat.
Patterns in Shallow-Water Habitats
    Regional and local processes influenced patterns of outcrop fish 
assemblages in shallow waters. At regional spatial scales, outcrop fish 
abundance patterns often shifted abruptly as oceanographic patterns 
changed, roughly defining a cool-temperate assemblage in the western 
Santa Barbara Channel, and a warm-temperate assemblage in the eastern 
Santa Barbara Channel. This distinctive spatial pattern was observed in 
both oil and gas platform and natural outcrop habitats. In shallow 
waters, there was greater variability in platform species assemblages 
and population dynamics compared to natural outcrop assemblages, and 
this was most likely caused by the greater sensitivity of platform 
habitats to changing oceanographic conditions. Local processes that 
affected fish distribution and abundance were related to habitat 
features, where depth, relief height, and presence of giant kelp all 
played important roles. On platform habitat, we found that the majority 
of newly settled rockfish juveniles resided at depths greater than 26 m 
(86 ft.), although there were differences among species.
Characterization of the Deepwater Platform Fish Assemblages
    With the exception of the shallow-water Platform Gina, all of the 
platforms we surveyed were characterized by three distinct fish 
assemblages: midwater, bottom, and shell mound. Rockfishes, totaling 42 
species, dominated these habitats. Fish densities at most platforms 
were highest in the midwater habitat reflecting the depth preferences 
of young-of-the-year rockfishes. Young-of-the-year rockfishes 
represented the most abundant size classes in platform midwaters. 
Platform midwaters were nursery grounds for rockfishes as well as for a 
few other species, including cabezon and painted greenling. The young-
of-the-year of at least 16 rockfish species inhabited these waters. 
Settlement success was affected by oceanographic conditions. Densities 
of young-of-the-year varied greatly between years and platforms. Young-
of-the-year rockfish densities often varied by an order of magnitude or 
greater among survey years and platforms. From 1996 through 1998, 
rockfish settlement was generally higher around the platforms north of 
Point Conception as compared to platforms in the Santa Barbara Channel. 
This finding is reflective of the generally colder, more biologically 
productive waters in central California during the 1980s and much of 
the 1990s. Colder waters in 1999 were associated with relatively high 
levels of rockfish recruitment at all platforms surveyed. In 2000 and 
2001, juvenile rockfish recruitment at platforms in the Santa Barbara 
Channel remained higher than pre-1999 levels, possibly reflecting the 
oceanographic regime shift to cooler temperatures that may be occurring 
in southern California.
    Subadult and adult rockfishes and several other species dominated 
the bottom habitats of platforms. The bottom habitat of some platforms 
is also important nursery habitat as, in some instances, young-of-the-
year rockfishes were observed in very large numbers. In general, more 
than 90% of all the fishes around platform bottoms were rockfishes. 
Bottom depth strongly influenced the number of species, species 
diversity, and density of fishes living around platform bases. This is 
distinctly different than the pattern observed in platform midwaters. 
The platform base provides habitat for not only fishes but also their 
prey and predators.
    Shell mounds supported a rich and diverse fish assemblage. As at 
other platform habitats, rockfishes comprised the vast majority of the 
fishes. The many small sheltering sites created by mussels, anemones, 
and other invertebrates on the shell mounds created a habitat occupied 
by small fishes. Many of these fishes were the young-of-the-year and 
older juveniles of such species as lingcod and copper, flag, 
greenblotched, and pinkrose rockfishes and cowcod. The adults of these 
species also inhabited the platform bottom.
Platform versus Reef Fish Assemblages
    We compared the species composition of the fish assemblages at 
Platform Hidalgo and at North Reef, an outcrop located about 1,000 m 
(3,300 ft.) from the platform. The assemblages were quite similar, both 
were dominated by rockfishes. In general, the distinctions between the 
platform and outcrop assemblages were based on differences in species 
densities, rather than species' presence or absence. Most species were 
more abundant at Platform Hidalgo. Halfbanded, greenspotted, flag, 
greenstriped, and canary rockfishes, and all three life stages of 
lingcod (young-of-the-year, immature, adult) and painted greenling had 
higher densities around the platform. Five species (pink seaperch, 
shortspine combfish, pygmy, squarespot, and yellowtail rockfishes) were 
more abundant at the outcrop. Young-of-the-year rockfishes were found 
at both Platform Hidalgo (primarily in the midwaters) and at North 
Reef. Young-of-the-year rockfish densities were higher at the platform 
than at the outcrop in each of the five years studied. In several 
years, their densities were more than 100 times greater at Platform 
Hidalgo compared to North Reef.
    Rockfishes numerically dominated the fish assemblages at almost all 
of the platform and hard sea floor habitats in our study. Overall 
species richness was greater at the natural outcrops (94) than at the 
platforms (85). There was a high degree of overlap in species between 
platforms and outcrops and differences were primarily due to generally 
higher densities, of more species, at platforms. In general, canary, 
copper, flag, greenblotched, greenspotted, greenstriped, halfbanded, 
vermilion rockfishes, bocaccio, cowcod, and widow rockfish young-of-
the-year, painted greenling and all life history stages of lingcod were 
more abundant at platforms than at all or most of the outcrops studied. 
Yellowtail rockfish and the dwarf species pygmy, squarespot, and 
swordspine rockfishes were more abundant on natural outcrops.
Findings
    Our research demonstrates that some platforms may be important to 
regional fish production. The higher densities of rockfishes and 
lingcod at platforms compared to natural outcrops, particularly of 
larger fishes, support the hypothesis that platforms act as de facto 
marine refuges. High fishing pressure on most rocky outcrops in central 
and southern California has led to many habitats almost devoid of large 
fishes. Fishing pressure around most platforms has been minimal. In 
some locations, platforms may provide much or all of the adult fishes 
of some heavily fished species and thus contribute disproportionately 
to those species' larval production.
    Platforms usually harbored higher densities of young-of-the-year 
rockfishes than natural outcrops and thus may be functionally more 
important as nurseries. Platforms may be more optimal habitat for 
juvenile fishes for several reasons. First, because as structure they 
physically occupy more of the water column than do most natural 
outcrops; presettlement juvenile or larval fishes, transported in the 
midwater, are more likely to encounter these tall structures than the 
relatively low-lying natural rock outcrops. Second, because there are 
few large fishes in the midwater habitat, predation on young fishes is 
probably lower. Third, the offshore position and extreme height of 
platforms may provide greater delivery rates of planktonic food for 
young fishes. Most of the natural outcrops we found that had high 
densities of young-of-the-year rockfishes were similar to platforms as 
they were very high relief structures that thrust their way well into 
the water column.
    Our research, and reviews of existing literature, strongly implies 
that platforms, like natural outcrops, both produce and attract fishes, 
depending on species, site, season, and ocean conditions. Platform fish 
assemblages around many of the deeper and more offshore platforms 
probably reflect recruitment of larval and pelagic juvenile fishes from 
both near and distant maternal sources, not from attraction of juvenile 
or adult fishes from natural outcrops. Annual tracking observations of 
strong year classes of both flag rockfish and bocaccio imply that 
fishes may live their entire benthic lives around a single platform. A 
pilot study showed that young-of-the-year blue rockfish grew faster at 
a platform than at a natural outcrop indicating that juvenile fishes at 
platforms are at least as healthy as those around natural outcrops.
Management Applications
    In our report, we discuss the ecological and political issues that 
surround platform decommissioning in California, including the 
ecological consequences of the four platform decommissioning 
alternatives: (1) Complete Removal, (2) Partial Removal and Toppling, 
and (3) Leave-in-Place.
    Complete Removal: In complete removal, operators may haul the 
platform to shore (for recycling, reuse, or disposal) or it can be 
towed to another site and reefed. A typical full-removal project begins 
with well abandonment in which the well bores are filled with cement. 
The topsides, which contain the crew quarters and the oil and gas 
processing equipment, are cut from the jacket and removed and the 
conductors are removed with explosives. Finally, the piles that hold 
the jacket to the seabed are severed with explosives and the jacket is 
removed.
    Completely removing a platform for disposal on land will kill all 
attached invertebrates. If some of the platform structure is hauled to 
a reef area and replaced in the water, some of these animals may 
survive, depending on water depth and the length of time the structure 
is exposed to the air. The explosives used to separate the conductor 
and jacket from the sea floor kill large numbers of fishes. In a study 
in the Gulf of Mexico, explosives were placed 5 m (15 ft.) below the 
sea floor to sever the well conductors, platform anchor pilings and 
support legs, of a platform in about 30 m (100 ft.) of water. All of 
the fishes on or near the bottom and most of the adult fishes around 
the entire platform suffered lethal concussions. Marine mammals and sea 
turtles may also be indirectly killed by damage to the auditory system.
    The use of explosives to remove or topple a platform may also 
complicate fishery-rebuilding programs. Cowcod, a species declared 
overfished by NOAA Fisheries, provides an example. This species is the 
subject of a federal rebuilding plan that severely limits catches. In 
2001, this was 2.4 metric tons or about 600 fish. Based on our 
research, there are at least 75 adult cowcod on Platform Gail. If 
explosives are used to remove Gail, all of these fish will be killed. 
The loss of at least 75 adult cowcod may be sufficiently large to 
complicate the rebuilding plan.
    Partial Removal and Toppling: Under both partial removal and 
toppling the topsides are removed. In partial removal, the jacket is 
severed to a predetermined depth below the surface and the remaining 
subsurface structure is left standing. In toppling, the conductors and 
piles are severed with explosives and the jacket is pulled over and 
allowed to settle to the sea floor. In both partial removal and 
toppling, conductors need not be completely removed. Retaining 
conductors would add habitat complexity to a reefed platform.
    While the immediate mortality impact to attached invertebrates of 
partial removal is greater than leaving the platform structure in 
place, mortality risks to both fishes and invertebrates are much lower 
than in both toppling and total removal. Partial removal causes fewer 
deaths than does toppling for two reasons. First, because partial 
removal does not require explosives (as does toppling), there is 
relatively little fish, marine mammal, sea turtle, and motile 
invertebrate (such as crab) mortality. In addition, when a platform is 
partially removed, vertebrate and invertebrate assemblages associated 
with the remaining structure are likely to be minimally affected. In 
contrast, when a platform is toppled, the jacket falls to the sea 
floor, and, depending on bottom depth, many, if not most of the 
attached invertebrates die.
    Both partial removal and toppling would produce reefs with somewhat 
different fish assemblages than those around intact platforms. With the 
shallower parts of the platform gone, it is likely that partial removal 
would result in fewer nearshore reef fishes, such as seaperches, 
basses, and damselfishes. However, young-of-the-year rockfishes of many 
species recruit in large numbers to natural outcrops that have crests 
in about 30 m (100 ft.) of water or deeper. Thus, it is possible that 
partial removal would result in little or no reduction in young-of-the-
year recruitment for many rockfish species. The pelagic stage of some 
rockfish species, particularly copper, gopher, black-and-yellow and 
kelp, may recruit only to the shallowest portions of the platform. For 
these species, both partial removal and toppling would probably 
decrease juvenile recruitment, depending on the uppermost depth of the 
remaining structure. Young-of-the-year rockfishes, which make up the 
bulk of the fish populations in the platform midwater habitat, would 
probably be less abundant around a toppled platform compared to a 
partially removed one. Because most California platforms reside in 
fairly deep water, toppled platforms might reside at depths below much 
rockfish juvenile settlement. Thus, toppling might result in lowered 
species composition and fish density. However, depending on the 
characteristics of the platform, a toppled structure, with twisted and 
deformed pilings and beams, might have more benthic complexity than one 
that is partially removed. This might increase the number of such 
crevice dwelling fishes as pygmy rockfishes.
    It is difficult to catch fishes that live inside the vertically 
standing platform jacket. Our observations demonstrate that many of the 
rockfishes living at the platform bottom, such as cowcod, bocaccio, 
flag, greenspotted, and greenblotched rockfishes, dwell in the crevices 
formed by the bottom-most crossbeam and the sea floor. To a certain 
extent, these fishes are protected from fishing gear by the vertical 
mass of the platform, a safeguard that would persist if the platform 
were partially removed, particularly if the conductors remained in 
place. It would be much easier to fish over a toppled platform, as more 
of the substrate would be exposed to fishing gear.
    Coast Guard regulations do not require a minimum depth below the 
ocean surface to which a decommissioned platform must be reduced. The 
decision on how much of the jacket and conductors is left in place is 
based on both a Coast Guard assessment and the willingness of the 
liability holder to pay for the navigational aids required by the Coast 
Guard. As mussels become rare below about 30 m (100 ft.) on most 
platforms, the mistaken assumption that all partially removed platforms 
must be cut to 24-30 m (80-100 ft.) below the surface has led some to 
conclude that this will inevitably lead to a severe reduction in the 
amount of mussels that fall to the bottom and, thus, to a change in or 
end to, the shell mound community. This is not necessarily the case.
    Leave-in-Place: A platform could be left in its original location 
at the time of decommissioning. The topsides would be stripped of oil 
and gas processing equipment, cleaned, and navigational aids installed. 
If a platform were left in place, the effect on platform sea life would 
be minimal.

Research Needs
    Our research demonstrates that additional biological information is 
needed in the decommissioning process. These information needs fall 
into three categories: (1) A comparison of the ecological performance 
of fishes living at oil platforms and on natural outcrops, (2) A 
definition of the spatial distribution of economically important 
species (of all life history stages) within the region of interest and 
a definition of the connectivity of habitats within this region, and 
(3) An understanding of how habitat modification of the platform 
environment (e.g., removal of upper portion or addition of bottom 
structure) changes associated assemblages of marine life at offshore 
platforms.
    Major questions remaining to be addressed include:
    What Fishes Live Around Platforms and Nearby Natural Reefs?
        In order to assess the relative importance of a platform to its 
        region, it is essential to conduct basic surveys not only 
        around the platform, but also at nearby reefs. A majority of 
        platforms have not been surveyed.
    How Does Fish Production around Platforms Compare to that at 
Natural Outcrops?
    It is possible to compare fish production between habitats by 
examining (1) fish growth rates, (2) mortality rates, and (3) 
reproductive output. A pilot study compared the growth rates of young-
of-the-year blue rockfish at Platform Gilda and Naples Reef and another 
examining young-of-the-year mortality rates is planned. Additional work 
is needed to determine larval dispersal patterns and differences in 
densities at various study sites. For example, we now have enough data 
to study the relative larval production per hectare of cowcod and 
bocaccio at Platform Gail versus that on natural outcrops.
    What Is the Relative Contribution of Platforms in Supplying Hard 
Substrate and Fishes to the Region?
    This research would put in perspective the relative contribution of 
platforms in supplying hard substrate and reef fishes to their 
environment.
    First, this requires knowledge of the rocky outcrops in the 
vicinity of each platform; this is derived from sea floor mapping. Once 
the mapping is complete, visual surveys of the outcrops, using a 
research submersible, will determine the fish assemblages and species 
densities in these habitats. Knowing the areal extent of both natural 
and platforms habitats and the densities of each species in both of 
these habitats, it is then possible to assess the total contribution of 
each platform to the fish populations and hard substrate in that 
region.
    How Long Do Fishes Reside at Oil/Gas Offshore Platforms?
    It is unclear how long fishes are resident to platforms. For 
instance, does the large number of fishes, particularly such species as 
the overfished bocaccio and cowcod, remain around the platforms for 
extended periods? Knowledge of the residence time of these species 
would allow us to more accurately determine if platforms form optimal 
habitat for these species.
    What are the Effects of Platform Retention or Removal on Fish 
Populations within a Region?
    As an example, what effect would platform retention or removal have 
on young-of-the-year fish recruitment? Would the young rockfishes that 
settle out at a platform survive in the absence of that platform? Our 
surveys demonstrate that planktonic juvenile fishes, particularly 
rockfishes, often settle to platforms in substantial numbers. If that 
platform did not exist, would these young fishes have been transported 
to natural outcrops? Knowing how long it would take rockfish larvae to 
reach suitable natural outcrops, and what percent of these larvae would 
likely die before reaching these outcrops, will give a sense of the 
importance of a platform as a nursery ground.
    Similarly, using a synthesis of oceanographic information, it is 
possible to model the fate of larvae produced by fishes living at a 
platform.
    How Does Habitat Modification of the Platform Environment (e.g., 
Removal of Upper Portion or Addition of Bottom Structure) Change 
Associated Assemblages of Marine Life?
    All decommissioning options except leave-in-place involve 
modification of the current physical structure of offshore platforms. 
Is it possible to increase fish diversity and density by altering the 
sea floor or the platform itself? For instance, it would be useful to 
add complexity, in the form of quarry rock or other structure, to the 
shell mound around a platform, and follow the changes in fish 
assemblages.
    Descriptive information such as depth distribution and life history 
information is also useful in determining how decommissioning options 
affect the environment. Experimental research, using a BACI design or 
similar approach, can aid in predicting how the biotic community will 
respond to such structural changes.
                                 ______
                                 
    Mr. Neugebauer. And our next panel member is John Amos. Is 
that correct?
    Mr. Amos. That is correct.
    Mr. Neugebauer. With Skytruth. John, thank you.

                STATEMENT OF JOHN AMOS, SKYTRUTH

    Mr. Amos. Mr. Chairman and members of the Subcommittee, 
thank you very much for inviting me to appear here today. I 
would also like to thank my colleague for giving such a great 
presentation on the decreasing environmental impacts in the 
offshore of extended reach drilling. Truly the industry has 
made tremendous strides in technology and in reducing their 
footprint in the offshore arena. And the reason for that is 
primarily because it is a lot cheaper in deep water to drill 
multiple extended reach wells from one platform than it is to 
construct multiple platforms and drill the old-fashioned 
vertical way. But I am here today because that is actually not 
the case onshore. So we are still seeing a lot of really 20th 
century impact to the land surface from onshore oil and gas 
development.
    My name is John Amos. I am trained as a geologist with a 
Master's Degree from the University of Wyoming. I worked for 10 
years as a consultant to energy companies using satellite 
imagery as a tool to help them explore for oil and gas deposits 
around the world. Now I am President of Skytruth, a nonprofit 
organization that uses satellite images to study and 
communicate environmental issues. Since 2001 I have been 
working to inform the public about the effects of drilling for 
natural gas on public lands throughout the Rocky Mountain West, 
and I am here today in that capacity.
    One of the main concerns related to onshore energy 
development is the impact of the infrastructure, primarily the 
drilling pads and access roads that are constructed to drill 
the wells. Direct impacts include the destruction of native 
vegetation and loss of wildlife habitat where these facilities 
are built. Indirect impacts cover a much larger area and may 
include air and water pollution, the introduction of noxious 
weeds, changes in the behavior and breeding success of 
wildlife, and the degradation of scenic landscapes.
    The Jonah field in Wyoming provides a vivid illustration of 
this. With total reserves of 3 to 5 trillion cubic feet of 
natural gas, it is widely considered one of the most 
significant natural gas discoveries in North America. It now 
serves as a model to industry for future gas plays. New fields 
throughout the Rockies mirror the infrastructure footprint that 
we see in Jonah. And unless these low-impact technologies that 
we have heard about today are widely implemented onshore, we 
can expect to see much more development that looks just like 
the Jonah field. First slide, please.
    OK. Let me tell you about the Jonah gas field. It spans 
60,000 acres in the southern part of the greater Yellowstone 
ecosystem, an important corridor for antelope and mule deer 
migration as well as what biologists deem critical winter 
foraging range. Most of the land within the Jonah field and 
indeed through the interior mountain West is publicly owned and 
is administered by the U.S. Bureau of Land Management.
    Jonah field was first discovered in 1993, and in 1998 BLM 
issued a final environmental impact statement that allowed full 
field development to occur. The EIS predicted that no more than 
497 wells would be required to drain all of the natural gas in 
the field, and that 8 wells per square mile would be allowed, 
and drilling would take about 10 to 15 years to complete. BLM 
also estimated that each drilling pad would be about 2.5 acres 
of direct surface disturbance to construct each pad, and that 
the entire infrastructure would only account for about 5 
percent of the land area within the field.
    Within a year and a half, over 150 wells have been drilled 
in the field. Analysis showed that each well pad was actually 3 
to 4 acres in size, not the 2.5 that was originally estimated. 
By the fall of 2001, there were more than 300 wells installed 
in the Jonah field, and a year later, in the fall of 2002, over 
400 wells and hundreds of miles of connecting access road and 
pipeline have been installed.
    That infrastructure is about to actually triple. Earlier 
this year, there were proposed 850 new drilling sites; 
densities as high as 40 pads per square mile, quite an increase 
over the 8 per square mile that was originally estimated.
    If approved, BLM estimates the total impact will now be 
almost four times their original estimate in the EIS and the 
footprint will consume 20 percent of the total land area in the 
field.
    Here is what the gas field infrastructure looked like in 
Jonah field back in 2001. You see each of those bright spots is 
a well pad, about 3 or 4 acres in size. It is essentially a 
flat graded staging area for the equipment that is needed to 
drill to complete the well, and each one has an access road to 
it, again a graded dirt road that is about 40 to 60 feet wide.
    Next slide.
    Here is what the area looked like in space. This is a 
Landsat satellite image acquired through a U.S. Geological 
Survey that shows the area in 1986. There is not too much to 
look at there. You can see a couple of bright lines that 
intersect near the lower left portion of the image. Those are 
the only two graded access roads through the area. The rest of 
it is essentially undisturbed native sagebrush and grassland 
habitat.
    Next slide.
    There is what it looked like in 1999, after a total of 
about 150 wells have been installed in the field. Now you can 
see hundreds of these well pads throughout the area, and you 
get a feel for the density of the connecting infrastructure 
network that needs to be developed to accommodate this 
conventional one well per pad vertical drilling style.
    Next slide.
    And by 2001, we have more than 300 wells in the field.
    Next slide.
    2002, this is the latest image that I have for the field 
from the fall of 2002. Again, this is more than 400 wells that 
have been installed, one well per pad. If you look closely at 
some of these drilling pads, you will see small dark blue 
spots. Those are open pits of waste drilling fluids and water 
that is being produced in conjunction with the natural gas. 
And, again, we can expect that infrastructure that you see here 
on this image to triple in density.
    So I think you can take away three lessons from the Jonah 
field which really represents the state-of-the-art in modern 
onshore oil and gas development in America today. One is that 
the BLM is a little bit behind the eight ball. BLM and industry 
in 1998 grossly underestimated the infrastructure that would be 
necessary to initially recover the gas from the field, and 
therefore significantly underestimated what the environmental 
impact of that destruction would be.
    Number two, once development is pursued, drilling actually 
proceeds very rapidly. In this case, it actually occurred at 
more than twice the rate of what BLM and industry predicted in 
the 1998 EIS.
    And, finally, modern natural gas fields on public lands 
still have a major impact on landscape. Proven technologies 
that could minimize this, such as the directional drilling that 
has been so spectacularly successful in the offshore, are not 
being widely implemented in the onshore.
    Thank you again for allowing me to present this 
information. I hope it provides you with a new perspective on 
the environmental impacts on onshore development in the 21st 
century. And I would be pleased to answer your questions.
    [The prepared statement of Mr. Amos follows:]

             Statement of John F. Amos, President, SkyTruth

    Madam Chairwoman and members of the Subcommittee: Thank you for the 
asking me to appear before you today to participate in this important 
discussion. My name is John Amos, and I am President of SkyTruth, a 
nonprofit organization dedicated to applying satellite imagery for 
environmental analysis. I am trained as a geologist, with a bachelor's 
degree from Cornell University and a Master's degree obtained from the 
University of Wyoming. I have more than ten years of experience working 
as a consultant to oil and gas companies ranging from major 
multinationals to regional independents, using satellite images to 
evaluate the oil and gas potential of areas as diverse as Mongolia, 
offshore Venezuela, and the Green River Basin in Wyoming. Since 2001, I 
have applied my knowledge of satellite image acquisition, processing 
and analysis to help inform the public about the effects of drilling 
for natural gas on federally managed lands throughout the Rocky 
Mountain west. I am here today in that capacity.
    One of the main environmental concerns related to onshore oil and 
gas development is the direct and indirect impact of the 
infrastructure--drilling pads, access roads, pipelines, pumping 
stations, processing plants and other facilities--that must be 
installed to extract, process and transport the oil and gas. Direct 
impacts include the destruction of native vegetation, soils and 
wildlife habitat by the construction of this infrastructure. Potential 
indirect impacts cover a much larger area than this drilling 
``footprint'' and include:
    <bullet> Increases in air pollution caused by emissions from 
vehicles, drill rigs, compressors and other engines, and dust caused by 
vehicular traffic;
    <bullet> The introduction of noxious weed species and invasive 
alien species;
    <bullet> Ground and surface water pollution caused by hydraulic 
fracturing operations and the disposal of drilling fluids and produced 
water;
    <bullet> Noise and light pollution;
    <bullet> Changes in the foraging behavior, breeding success, and 
migration patterns of wildlife; and
    <bullet> Aesthetic loss resulting from the industrialization of 
essentially wild or pastoral landscapes.
    Much of this impact could be reduced by applying well-demonstrated 
technologies to shrink the direct surface footprint of oil and gas 
operations. Those of us who follow these issues have heard a lot about 
the potential benefits of one of these technologies--``directional'' 
drilling, where multiple wells can be drilled to extend outwards from 
one location, maximizing the ability to recover oil and gas while 
minimizing the number of drilling locations that must be established on 
the land surface. Industry and government frequently mention 
directional drilling as a solution when environmental concerns are 
raised about new development. Unfortunately, this proven technology is 
not being routinely applied to minimize the environmental impacts of 
energy development on public lands in the Rocky Mountain West, 
especially with regards to the booming business of natural gas 
production. My experience as a consultant to industry throughout the 
1990s, and my ongoing analyses of energy development projects using 
satellite and aerial imagery, confirms that the majority of drilling on 
public lands is still being done in the conventional, vertical manner. 
This old-fashioned solution requires many closely spaced drilling 
locations to efficiently extract natural gas from the low-permeability 
``tight gas'' sandstone and coal bed methane reservoirs that are now 
attracting so much attention from industry, resulting in maximum 
environmental impact.
    The Jonah natural gas field in western Wyoming vividly illustrates 
this situation. Jonah is widely considered by industry as one of the 
most significant natural gas discoveries in North America of the past 
decade, and it has proven to be one of the most lucrative for its 
owners and operators. Its discovery resulted from a combination of new 
exploration and well completion technology. The Jonah field created a 
new paradigm for onshore natural gas exploration, and lead directly to 
a recapitalization of the Rocky Mountain energy business that has 
generated a modern-day boom in exploration and drilling, mostly on 
federally managed lands. Jonah clearly represents the ``state of the 
art'' in modern onshore natural gas production, and serves as a model 
to industry for finding and exploiting future gas plays in the Rockies. 
Indeed, one energy-industry representative recently testified to this 
subcommittee that his company expects to find ``2--3 more Jonah-sized 
accumulations'' within their leased acreage alone in the Jonah area.
    New natural gas fields throughout the Rockies, including tight-gas 
sandstone plays in the Piceance and Great Divide basins and coal bed 
methane plays in the Uinta, San Juan and Powder River basins, mirror 
the development footprint that we see in Jonah on satellite and aerial 
images. Unless low-impact technologies are widely applied, we can 
expect to see much more development in the immediate future that looks 
like the Jonah field.
Jonah Natural Gas Field--Background Information
    Location: The Jonah natural gas field covers 59,500 acres located 
32 miles south of Pinedale in Sublette County, western Wyoming. To 
biologists, it lies within the southern part of the Greater Yellowstone 
Ecosystem, an important corridor for antelope and mule deer migration 
as well as critical winter foraging range. To geologists, the Jonah 
area is located in the northern part of what is known as the greater 
Green River Basin, a broad sedimentary accumulation that hosts 
significant oil, gas, and mineral resources. Most of the land within 
the Jonah field is publicly owned and is administered by the U.S. 
Department of the Interior's Bureau of Land Management (BLM).
    Geology: Jonah is a structurally controlled sweet spot within the 
continuous-type, basin-centered natural gas play of the Green River 
Basin. The reservoir is hosted by the Cretaceous-age Lance Formation, a 
low-permeability ``tight gas'' sandstone. Wells are drilled to a depth 
of about 8-10,000 feet and require special completion procedures that 
include fracture stimulation to effectively produce gas. The average 
pay-zone thickness is 500 feet.
    Production: In 2000, the Jonah field yielded almost 200 million 
cubic feet (MMCF) of gas per day. By 2003, production had leaped to 
about 700 MMCF/day, with some individual wells initially producing up 
to 100 MMCF/day.
    Reserves: At 3-5 trillion cubic feet (TCF), Jonah is the second-
largest gas field in Wyoming and has earned the following praise from 
industry: ``One of the largest gas discoveries in North America'' and 
``Even by international standards, this is truly a significant gas 
play.'' The adjacent Pinedale Anticline, now in the initial stages of 
full-field development, holds an estimated 6 TCF.
    Well Economics: In 1998, the average well cost $1.5M to drill, 
complete, and bring online. In 2000 the average Estimated Ultimate 
Recovery (EUR) of gas was 6-7 billion cubic feet (BCF) per well. Ultra 
Petroleum Corp. reported in 2000 that new wells pay out in only 6-8 
months and will produce for 30 years. Some Jonah operators are 
experiencing up to 100% rate of return on investment. Because these 
``tight sands'' reservoirs in the Jonah and Pinedale Anticline area 
qualify as ``non-conventional deposits,'' natural gas extracted here 
would also qualify for Section 29 tax credits, which Congress is 
considering extending for several more years.
Jonah Natural Gas Field--Development Timeline
    1975. Jonah Field is discovered by the Davis Oil--Wardell Federal 
#1 well. At only 303 thousand cubic feet (MCF) of gas and 2 barrels of 
oil per day the well is not economic, and there is little resulting 
activity. See Figure 2.
    1992. McMurry Oil Company buys the field. There are only 3 existing 
wells in place. McMurry's first production of gas is reported to the 
State of Wyoming Oil and Gas Commission in 9/92.
    1993. Aided by new 3-d seismic survey and well completion/
stimulation technologies, McMurry ``rediscovers'' Jonah Field with the 
McMurry Oil--Jonah Federal #1-5 well, which produces 3.7 million cubic 
feet (MMCF) of gas and 40 barrels of oil per day.
    1994. BLM issues ``McMurry Oil Company Jonah Prospect Field Natural 
Gas Development Environmental Assessment'' and limited drilling 
proceeds.
    December 1997. 58 wells are in place (reported by BLM).
    April 1998. BLM issues the Record of Decision for ``Jonah Field II 
Natural Gas Development Project EIS'' to allow full-field development:
    <bullet> Operators state that no more than 497 wells will be 
required for full extraction of natural gas from Jonah (300--350 is 
considered the ``most probable'' number);
    <bullet> One well is proposed at each drilling location, or ``well 
pad'';
    <bullet> The maximum allowed drilling density is one well location 
per 80 acres (8 pads per sq. mile);
    <bullet> BLM estimates there will be 2.5 acres of direct surface 
disturbance to construct each pad; the total surface disturbance is 
estimated to be 2927 acres, including the pads, connecting roads, 
pipelines, and other anticipated infrastructure;
    <bullet> Full-field development of 497 wells will require 10--15 
years (about 30 wells per year); and
    <bullet> The total lifetime of the field will be 40-50 years.
    December 1998. >90 wells are in place (reported by McMurry Oil 
Company).
    December 1999. >150 wells are in place (reported in PTTC 
Newsletter). See Figure 3.
    April 2000. 170 wells are in place (reported by BLM).
    May 2000. BLM issues the Record of Decision for the adjacent 
Pinedale Anticline EIS:
    <bullet> The Pinedale EIS estimates that each well pad alone 
disturbs 3.7 acres (5 acres for multi-well pads), and access roads have 
a disturbance width of 40-52 feet; and
    <bullet> Analysis of aerial and satellite images shows that the 
development occurring in Jonah is consistent with these Pinedale EIS 
estimates.
    June 2000. Alberta Energy Company buys out McMurry and becomes the 
major interest holder in Jonah; in 2002 they become EnCana Oil and Gas, 
the largest independent natural gas producer in N. America.
    December 2000. BLM issues the Record of Decision that approves 40-
acre spacing (16 pads per sq. mile) in the eastern half of the field 
(``Jonah Field Environmental Assessment, Sublette County, Wyoming''):
    <bullet> Operators repeat that 497 wells is adequate to extract 
the natural gas; and
    <bullet> In a Wall Street interview, Ultra Petroleum Corp. hails 
this decision as ``clearing the path for dramatic growth in production, 
cash flow and earnings.''
    December 2000. >230 wells are in place (reported by BLM).
    July 2001. 300 wells are in place (reported by BLM). See Figure 4.
    March 2003. BLM reports that operators have requested permission 
for an infill drilling program that will add up to 1,250 new wells from 
up to 850 new pads (``Scoping Notice, Proposed Jonah Infill Drilling 
Project''):
    <bullet> Surface well spacing will decrease to 16-acre (40 pads 
per sq. mile);
    <bullet> BLM raises their estimate of surface disturbance for the 
original 497 wells and associated infrastructure by over 40%, from 2927 
acres to 4225 acres;
    <bullet> Infill drilling will:
      * LAdd 7,225 acres to the surface impact, bringing the total to 
11,450 acres (almost 4 times the original estimate given in 1998 EIS);
      * LNearly triple the number of well pads that were considered 
adequate by operators and BLM in 1998, and again as recently as 
December 2000 (from 497 to 1347); and
      * LDirectly impact 20% of the total land area enclosed by the 
Jonah project.
    <bullet> The total field lifetime is reduced to 25 years, half of 
the original estimate.
    May 2003. 435 wells are in place (reported by BLM). By late spring, 
BLM reports that over 500 wells are in place: more than allowed by the 
existing EIS, and installed in only five years rather than the 10--15 
year estimate made in 1998. Satellite images graphically illustrate 
this explosive growth of infrastructure. See Figures 2--5.
    August 2003. Media reports that a total of 3100 wells may 
ultimately be drilled in Jonah: 1300 in addition to the just-proposed 
infill program (Casper Star-Tribune).
Jonah Natural Gas Field--Development Illustration
    The direct impact to the land surface of oil and gas infrastructure 
is clearly shown on pictures taken from earth-orbiting satellites. The 
examples here are from the Landsat series of satellites, which have 
been in continuous operation since 1972. Landsat is launched and 
operated by NASA. The images are distributed to government users and to 
the public by the U.S. Geological Survey. We purchased four Landsat 
images covering the Jonah field that were taken in 1986, 1999, 2000 and 
2002. This time-series illustrates the extent of landscape impact and 
habitat fragmentation associated with the construction of well pads, 
access roads, and other gas field infrastructure. It also illustrates 
how rapidly these impacts multiply once federal land managers approve 
drilling.
    In the following sequence of satellite images (Figures 2--5), the 
same 7-mile x 7-mile area covering the Jonah field is shown in 1986, 
1999, 2000 and 2002. Disturbed land is very bright because the bare, 
dry soil reflects sunlight much more than undisturbed topsoil and 
vegetation. Well pads and access roads clearly appear as bright spots 
and lines against the darker undisturbed background. Each well pad is a 
graded area ranging in size from about 3 to 4 acres. Access roads are 
also graded, and range in width from about 40 to 60 feet. Figure 1 is a 
photograph taken from a low-flying airplane that shows a typical well 
pad, with the well actively being drilled.

[GRAPHIC] [TIFF OMITTED] T9399.006

      

      
    [GRAPHIC] [TIFF OMITTED] T9399.007
    
      

      
    [GRAPHIC] [TIFF OMITTED] T9399.008
    
      

      
    [GRAPHIC] [TIFF OMITTED] T9399.009
    
    [GRAPHIC] [TIFF OMITTED] T9399.010
    
Conclusion
    I hope this information adds a new perspective to your 
understanding of the environmental impacts of onshore energy 
production. Proven technologies exist that could help lessen the direct 
environmental impacts illustrated by the Jonah example, but for a 
variety of reasons these are not being applied. I urge you to work 
together with industry, land-management agencies, and the environmental 
community to find mutually agreeable ways to better deploy these 
technologies, and to develop procedures for realistically evaluating 
the ultimate impact of development early in the scoping and approval 
process. For example, The Wilderness Society recently issued a report, 
entitled Fragmenting Our Lands: The Ecological Footprint from Oil and 
Gas Development, that contains a number of recommendations on how 
managers can better identify and plan for oil and gas activities in 
order to minimize their impacts on public lands.
    Thank you for your time and attention today. I look forward to any 
questions you may have, and place myself at your disposal if I can be 
of further service.
                                 ______
                                 
    Mr. Neugebauer. Thank you, Mr. Amos.
    Dr. Love, are you cued back up?
    Mr. Love. Well, we are about to test it out. Technology 
marches on.
    These shots were taken during various research cruises. 
This is the submarine that we use for the deeper water parts of 
the platforms. We look at natural reefs and platforms all 
throughout southern California. We have looked at about 200 
natural reefs and 7 platforms, so we have a very good frame of 
reference about what fishes live on. Each--this is an 
untethered sub. There is two people in it. It dives down to 
1,200 feet, which we kind of randomly and routinely do. We 
videotape all of the fish surveys so that we can always go back 
and recount fish if there is any question. This gives you an 
idea of the size of the sub. It is about the size of a phone 
booth.
    This is what we see on a good year when we have lots of 
small fishes living around the platforms. Every one of these 
little dots is a young of the year rockfish, mostly of species 
that have been declared overfished by NOAA fisheries. Again, on 
years with high survivorship--and not every year is like this--
there are tens and tens and tens of thousands of these young 
rockfishes. Here's close-ups. These are all widow rockfish 
overfished declared by NOAA fisheries. The platform of course 
is covered in invertebrate life, in this case various kinds of 
anemones. And you can see that there is just astronomical 
numbers. Young of the year bocaccio, brand-new 6-month-old 
fish, which are again overfished according to NOAA fisheries. 
One of them does something very strange here, makes this little 
loopy-loop and I have never understood why. Where is that one? 
That one. Like that. What's going on there?
    At the bottom of the platforms we see, as I mentioned, 
large numbers of adult fishes because they are not fished. This 
is--we call this candy cane lane because it is all these flag 
rockfishes. Again, most of what we see is rockfishes. They are 
the dominant group of fishes on natural reefs and platforms. 
Yellow eye rockfish overfished officially. Widow rockfish, 
overfished. Canary rockfish, overfished. And in our area, some 
of the last bastions for some of these fishes tend to be on 
platforms, because the reefs have been just slaughtered by 
recreational and commercial anglers for many decades.
    The deepest platform we look at is Platform Gail, which has 
very high numbers of eufousets, which aren't associated with 
the platform but living there. And I think that leads to very 
large numbers of some very large fishes.
    An economically important one, greenblotched rockfish. We 
like them because they don't move. They are really easy to 
count. And a species called a Mexican rockfish, which is right 
there, it is about 3 feet long. And then, ironically, the 
highest levels of bocaccio, which is a major overfished species 
that we have ever seen anywhere. The highest densities are at 
this one platform. Again, they are just very hard to fish and a 
lot of people don't fish them.
    Around the platform there is a unique habitat formed by the 
shells of animals that fall off the platforms, primarily mussel 
shells, and they form a third habitat of very small young 
fishes. That is a baby cowcod, officially overfished, that 
tends to like to live on this low relief area. A baby black 
gill rockfish, a major commercial species, they also tend to 
like this kind of low lying stuff. And then the last species is 
what is called a pinkrose rockfish, which is a dwarf species; 
it never gets very big. There it is right there. And it lives 
on this kind of low habitat.
    Thank you very much.
    Mr. Neugebauer. And thank you very much. Is that the 
conclusion of your testimony?
    Mr. Love. That is the conclusion. Thank you.
    Mr. Neugebauer. Thank you very much.
    I have a few questions for the panel. I will start with 
you, Dr. Love. In your opinion, why are the rockfish and other 
marine creatures attracted to these oil and gas platforms? What 
is the attraction to them?
    Mr. Love. Well, they are associated to habitat. They are 
attracted to habitat. And in terms, and particularly rockfishes 
really don't care what the habitat is. It can be a sewer line, 
it can be a pipe, it can be a cable car, it can be a platform. 
They just like to either just look at it, literally. They just 
sit there and look at it. Or they like to hide in it. And they 
don't make a distinction if the habitat is of the right kind of 
shape. That is what they are really interested in.
    Mr. Neugebauer. Is there a difference between the activity 
around the platforms while the platform is actively engaged in 
drilling and then when drilling then ceases on that platform 
and that platform is dormant?
    Mr. Love. Well, I guess I should get a definition. Do you 
mean when it is producing versus when it is shut down?
    Mr. Neugebauer. Right.
    Mr. Love. Right. We have never looked at a nonproductive 
well or facility, because the last nonproducing facilities were 
removed in the mid-1990s and we never really looked at them. My 
guess would be there would be not be, but that is just a guess.
    Mr. Neugebauer. So all of the research that you are doing 
is around active wells, is it?
    Mr. Love. Right, ones that are either just producing or 
where there is some drilling and production going on.
    Mr. Neugebauer. OK. And I hope I pronounce this correctly. 
Mr. Kulesza. Is that right?
    Mr. Kulesza. Kulesza.
    Mr. Neugebauer. Close. With a name like Neugebauer, I have 
had to pronounce mine also a couple of times.
    Mr. Kulesza. I understand.
    Mr. Neugebauer. The gentleman brought up an interesting 
point a while ago about the technologies and surface impacts. 
Is industry developing technologies to minimize surface impacts 
from exploration and development?
    Mr. Kulesza. The industry is. As I alluded to in my 
presentation, extended reach drilling, which is becoming a very 
accepted method of exploring for oil and gas, is being used 
by--which once was used only by the majors, are now being used 
by major independents and independents. So, yes, we are going 
toward areas that, where we can minimize certainly the capital 
investment, which also enhances the environmental impact of 
drilling for energy. And this is one of the areas that I think 
we are going to see greater acceptance and greater use.
    Mr. Neugebauer. You are familiar with the activity on the 
Alaska Northern Slope. Compare the activities and the 
technology available today as opposed to 25 years ago when we 
first began that process.
    Mr. Kulesza. In the example that I used in my presentation, 
we showed an onshore drilling rig that was placed there, and 
then we were drilling offshore to recover a reserve. Back in 
1985, the recovery of that reserve would have been impossible 
due to the ice formations and the ice flow. Putting an offshore 
platform in that environment would have been impossible to do. 
So that would have left that reserve, again, unrecoverable. So 
I think the big change now is that we can go into areas that we 
once could not, and we can do it with minimal surface 
disruption.
    Mr. Neugebauer. One of the things that is an issue is fluid 
containment during this process. Has there been some 
advancements in the ability to control the fluids during the 
process?
    Mr. Kulesza. Yes, sir. Probably the biggest advancement is 
in the types of fluids that are used. The fluids now are much 
more environmentally friendly. There have been talks about 
mercury contamination. I can't speak to that. We have seen over 
the past 20 years we have been in the business the changes in 
the composition of drilling fluids that are much more 
environmentally friendly. And the retainage and disposal of the 
fluids have improved a great deal.
    Mr. Neugebauer. Dr. Love, so some of these platforms in 
some of the previous testimony were some of the only really 
habitat availability in some of the waters. So what are the 
advantages of having those platforms as opposed to not having 
them? In other words, if we remove those and we don't have 
them, kind of run me through the process there of how that--the 
advantages to that as opposed to not having them.
    Mr. Love. Sure. And remember that every platform is 
different, so I am again going to have to generalize. It is 
fairly clear now that some of these platforms are producing 
overfished species. Let's take that as an example because it is 
the most emotionally laden. If you remove the platforms, a lot 
of the fishes that would have settled out as very young fishes 
probably would not have found a natural reef. So you are losing 
thousands if not tens of thousands of individuals to the 
system. That is the first thing. And, again, it is not for 
every platform.
    And then in the case of this kind of reserve function, some 
of these platforms have some of the only adult bocaccio or 
cowcod or some of these other fishes within miles or tens of 
miles. And these are the only fishes potentially that are 
producing larvae in a small region anyway. And so you are going 
to lose those individuals, too. I must also say that--and this 
is out of my area but it is kind of fascinating. I am not sure 
that you can remove platforms that have large numbers of 
overfished species because in the process you are going to kill 
them all. And I am not--I don't know Federal law, but I really 
wonder if that is going to become an issue for some of these 
platforms, if you can actually remove habitat that contain 
large numbers of these fishes.
    Mr. Neugebauer. I find it very interesting that something 
that I was strongly opposed for a number of years of allowing 
those activities has really produced these habitats that are--
from testimony given today, that are very positive to the 
environment.
    So I want to thank the witnesses for their valuable 
testimony and the members for their questions. Some of the 
members of the Subcommittee that aren't here or that had to 
leave may want to have additional questions, and they will 
submit those to the witnesses in writing, and you can forward 
your testimony back to them in writing to answer those 
questions. This hearing will be held open for 10 days for these 
responses.
    And if there is no other further business before the 
Subcommittee, then I would again thank the witnesses and thank 
the members, and we stand in adjournment.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]

    [A statement submitted for the record by Dr. Quenton R. 
Dokken, Associate Director, Center for Coastal Studies, Texas 
A&M University-Corpus Christi, and Executive Director, Gulf of 
Mexico Foundation, follows:]

  Statement of Dr. Quenton R. Dokken, Associate Director, Center for 
  Coastal Studies, Texas A&M University-Corpus Christi, and Executive 
                  Director, Gulf of Mexico Foundation

    Ms. Chairman and Honorable Committee Members,
    Thank you for the opportunity to present testimony to you today 
regarding the environmental impact of oil/gas platforms in the 
Northwestern Gulf of Mexico. Specifically, I would like to address the 
impact of these structures on the biological communities and dynamics 
of the northern Gulf of Mexico. I have been diving beneath these 
structures since 1969, and my research team and I have mounted 
intensive comprehensive studies of these structures since 1991. My 
testimony is based on the results of these studies.
    Natural hard surface substrates are not abundant topographical 
features in the northern Gulf of Mexico. Consequently, offshore oil/gas 
production structures provide ``islands of opportunity'' for organisms 
that require hard surface substrates on which to settle, and eventually 
create dynamic artificial reefs that meet the habitat needs of mobile 
reef organisms, both invertebrate and vertebrate. In the northern Gulf 
of Mexico there are approximately 4,000 oil/gas platform structures 
located across the continental shelf from shallow coastal waters to the 
deep waters near the shelf edge (Figure 1). Artificial reefs 
numerically increase opportunities that suitable habitat will be 
encountered by larval and pelagic organisms. Artificial reefs also 
provide fishing opportunities with 8 0% o f t he offshore recreational 
fishing trips having platform reefs as the main destination. As dynamic 
biological communities (Figure 2), artificial reefs impact the biology, 
ecology, and socioeconomics of the Gulf of Mexico.
    Artificial reefs have a positive effect the biology and ecology of 
the Gulf of Mexico on a local and regional scale. Platform based 
artificial reefs support diverse biological communities in the Gulf of 
Mexico, some of which are predominantly temperate in nature, others are 
tropical, and still other reefs are a mix of temperate and tropical. 
Artificial reefs meet the habitat needs of reef-restricted organisms 
and pelagic organisms. These communities enhance local and regional 
biodiversity. Conversely, they also create fisheries management 
challenges by making fishery-targeted species more accessible to a 
greater number of fishers. Artificial reefs can be evaluated and 
managed for multiple objectives. Creating suitable reef habitat for 
organisms to expand their distribution beyond the boundaries of their 
natural habitats can impact regional biodiversity. Artificial reef 
programs can also be designed to increase population densities of 
targeted fishery species. Artificial reefs can also be managed to make 
targeted species easier to catch. Management objectives must consider 
ecological, biological, and socioeconomic demands.

[GRAPHIC] [TIFF OMITTED] T9399.011


    To maximize biodiversity, primary and secondary production, and 
fisheries production, reef sites are most effective when concentrated 
between the 40 and 75 in depth contours. This zone seems to be equally 
effective at attracting and supporting strictly tropical organisms 
transported in offshore blue-water of the Gulf of Mexico as well as 
those more temperate organisms found in shallow coastal waters. 
Seasonally clear waters exist in this area for at least six months of 
the year. Water depths are adequate to minimize bottom disturbances and 
seasonal meteorological conditions have less impact on water 
temperature than at shallow water sites. These water depths also keep a 
significant portion of the reef structure above the turbid nepheloid 
layer.
    Artificial reefs also create fisheries management challenges by 
making targeted fishery species more accessible to a greater number of 
fishers. A possible strategy to mitigate for easier accessibility of 
targeted fishes at artificial reef structures and to support increased 
biomass of targeted fish stocks would be to establish fish reserves 
(i.e. no take zones) around artificial reef structures. The strategy 
would be to set aside an area, perhaps 1 km2, in an ecologically and 
environmentally advantageous area in water depths between 40 and 75 m. 
Concentrate reef material, perhaps having a standing platform as a 
center point, in this area. Place the reef material in a manner to 
increase the density and complexity with as much vertical relief as 
possible. Extend the reef structure to the shallowest depth allowable 
by shipping safety guidelines.
    The debate of whether or not artificial reefs contribute to the 
biological productivity of the Gulf of Mexico inevitably is based on 
the productivity of fishery targeted fish species. This is 
understandable since the socioeconomic demand for sustainable fisheries 
has substantial influence on the management of living marine resources. 
Based on targeted fishery species, the question of impact is 
unanswered. But based on the n on-targeted fauna, particularly the 
sessile community, the answer is unequivocally yes--artificial reefs do 
contribute to the biological productivity of the Gulf of Mexico 
ecosystem.
    My research indicates that when the upper proximal end of the reef 
structure is greater than 50 m from the sea surface, biological 
productivity is substantially reduced. If platforms such as East Breaks 
110A (204 m water depth) and East Breaks 165A (260 m water depth) were 
severed below the seabed as is currently required by federal law and 
toppled in place, there would b e more than 1 25m from the top of the 
structure to the water surface and it is unlikely that these structures 
would form biologically productive reefs. If anything, they would 
function more as fish attractant devices (FADs), but only to a limited 
degree due to reduction in fish abundance below 100 m. Artificial reef 
structures should be designed to extend from the seabed to the upper 
high-energy zones near the sea surface. Geographic placement affects 
biodiversity and habitat diversity. Subsequently, placement in an area 
of environmental conditions that allow the greatest opportunity for 
development of increased habitat and biological diversity w ill 
increase the effectiveness of the structure as a biologically 
productive artificial reef.
    A possible strategy to mitigate for the easier accessibility of 
targeted fishes at artificial reef structures and to support increased 
biomass of targeted fish stocks would be to establish a fish reserve 
(i.e. no-take zones) around artificial reef structures. The strategy 
would be to set aside an area, perhaps 1 km2, in an ecologically 
productive area in water depths between 40 and 75 m. Concentrate reef 
material, perhaps having a standing platform as a center point, in this 
area. Place additional reef material on the seabed surrounding the 
standing center platform, creating as much reef complexity and vertical 
relief as possible. Extend the reef structure to the shallowest depth 
allowable when considering shipping safety.
    There remains a great deal of research to be done to fully 
understand the impact of artificial reefs upon the ecology and 
productivity of the Gulf of Mexico. With thoughtful consideration and 
planning based upon known facts of the dynamics of artificial reefs, 
they will contribute to meeting the ever-growing demand for marine 
resources and recreational opportunities.

CONCLUSION
    <bullet> Oil/gas platform structures create dynamic and productive 
reef habitats.
    <bullet> The platform reefs of the Northern Gulf of Mexico are a 
major part of the ecosystem dynamics of the Gulf.
    <bullet> To the degree possible, these functioning reefs should be 
left intact, even after their useful life, as a producer of oil and gas 
is finished.
    <bullet> The impact of these reefs on fishery targeted resources 
needs to be factored into fishery management strategies.
    <bullet> Geographic placement and orientation of the structures 
will significantly impact the productivity of platform artificial 
reefs.
    <bullet> Management strategies should consider biological and 
socioeconomic objectives.


</pre></body></html>
